<html>
<title> - A REVIEW OF UNITED STATES ARMY CORPS OF ENGINEERS REPORTS TO CONGRESS ON FUTURE WATER RESOURCES DEVELOPMENT AND CHIEF'S REPORTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]





 A REVIEW OF UNITED STATES ARMY CORPS OF ENGINEERS REPORTS TO CONGRESS 
       ON FUTURE WATER RESOURCES DEVELOPMENT AND CHIEF'S REPORTS

=======================================================================

                                (114-34)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 24, 2016

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





         Available online at: http://www.gpo.gov/fdsys/browse/
        committee.action?chamber=house&committee=transportation
                                ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-873 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
   
   
   
   
   
   
   
   
   
   
   
   
   

             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
FRANK A. LoBIONDO, New Jersey        CORRINE BROWN, Florida
SAM GRAVES, Missouri                 EDDIE BERNICE JOHNSON, Texas
CANDICE S. MILLER, Michigan          ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
RICHARD L. HANNA, New York           ALBIO SIRES, New Jersey
DANIEL WEBSTER, Florida              DONNA F. EDWARDS, Maryland
JEFF DENHAM, California              JOHN GARAMENDI, California
REID J. RIBBLE, Wisconsin            ANDRE CARSON, Indiana
THOMAS MASSIE, Kentucky              JANICE HAHN, California
MARK MEADOWS, North Carolina         RICHARD M. NOLAN, Minnesota
SCOTT PERRY, Pennsylvania            ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
ROB WOODALL, Georgia                 ELIZABETH H. ESTY, Connecticut
TODD ROKITA, Indiana                 LOIS FRANKEL, Florida
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   JARED HUFFMAN, California
CRESENT HARDY, Nevada                JULIA BROWNLEY, California
RYAN A. COSTELLO, Pennsylvania
GARRET GRAVES, Louisiana
MIMI WALTERS, California
BARBARA COMSTOCK, Virginia
CARLOS CURBELO, Florida
DAVID ROUZER, North Carolina
LEE M. ZELDIN, New York
MIKE BOST, Illinois

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                       BOB GIBBS, Ohio, Chairman

CANDICE S. MILLER, Michigan          GRACE F. NAPOLITANO, California
DUNCAN HUNTER, California            DONNA F. EDWARDS, Maryland
ERIC A. ``RICK'' CRAWFORD, Arkansas  JOHN GARAMENDI, California
DANIEL WEBSTER, Florida              LOIS FRANKEL, Florida
JEFF DENHAM, California              JARED HUFFMAN, California
REID J. RIBBLE, Wisconsin            EDDIE BERNICE JOHNSON, Texas
THOMAS MASSIE, Kentucky              ANN KIRKPATRICK, Arizona
RODNEY DAVIS, Illinois               DINA TITUS, Nevada
MARK SANFORD, South Carolina         SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut
JOHN KATKO, New York                 ELEANOR HOLMES NORTON, District of 
BRIAN BABIN, Texas                   Columbia
CRESENT HARDY, Nevada                RICHARD M. NOLAN, Minnesota
GARRET GRAVES, Louisiana             PETER A. DeFAZIO, Oregon (Ex 
DAVID ROUZER, North Carolina         Officio)
MIKE BOST, Illinois
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works).........................................................     6
Lieutenant General Thomas P. Bostick, Chief of Engineers, U.S. 
  Army Corps of Engineers........................................     6

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Grace F. Napolitano of California...........................    43

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Hon. Jo-Ellen Darcy and Lieutenant General Thomas P. Bostick, 
  joint statement................................................    45

                       SUBMISSIONS FOR THE RECORD

Hon. Jo-Ellen Darcy, Assistant Secretary of the Army (Civil 
  Works), and Lieutenant General Thomas P. Bostick, Chief of 
  Engineers, U.S. Army Corps of Engineers, joint responses to 
  questions for the record from the following Representatives:

    Hon. Todd Rokita of Indiana..................................    56
    Hon. Blake Farenthold of Texas...............................    56
    Hon. Mike Thompson of California.............................    58
    Hon. Lois Frankel of Florida.................................    59
    Hon. Jared Huffman of California.............................    61
    Hon. Sean Patrick Maloney of New York........................    63
Hon. Ann Kirkpatrick, a Representative in Congress from the State 
  of Arizona, request to submit the following:

    Letter of February 19, 2016, from Jim Bradley, Vice 
      President, Policy and Government Relations, American 
      Rivers, to Hon. Bill Shuster, Chairman, and Hon. Peter A. 
      DeFazio, Ranking Member, House Committee on Transportation 
      and Infrastructure.........................................    66
    Joint letter of February 19, 2016, from Cara Capp, National 
      Cochair, and Jason Totoiu, State Cochair, Everglades 
      Coalition, to Hon. James M. Inhofe, Chairman, and Hon. 
      Barbara Boxer, Ranking Member, Senate Committee on 
      Environment and Public Works, and Hon. Bill Shuster, 
      Chairman, and Hon. Peter A. DeFazio, Ranking Member, House 
      Committee on Transportation and Infrastructure.............    83
    Statement of Melissa Samet, Senior Water Resources Counsel, 
      National Wildlife Federation...............................    85
    Joint letter of February 23, 2016, from American Sportfishing 
      Association, et al., to Hon. Bill Shuster, Chairman, and 
      Hon. Peter A. DeFazio, Ranking Member, House Committee on 
      Transportation and Infrastructure..........................    99
    Joint statement from American Rivers, et al., to Hon. Bill 
      Shuster, Chairman, and Hon. Peter A. DeFazio, Ranking 
      Member, House Committee on Transportation and 
      Infrastructure, and Hon. Bob Gibbs, Chairman, and Hon. 
      Grace F. Napolitano, Ranking Member, House Subcommittee on 
      Water Resources and Environment............................   102

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

 
 A REVIEW OF UNITED STATES ARMY CORPS OF ENGINEERS REPORTS TO CONGRESS 
       ON FUTURE WATER RESOURCES DEVELOPMENT AND CHIEF'S REPORTS

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2016

                  House of Representatives,
   Subcommittee on Water Resources and Environment,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:03 a.m. in 
room 2167, Rayburn House Office Building, Hon. Bob Gibbs 
(Chairman of the subcommittee) presiding.
    Mr. Gibbs. Well, good morning. The Subcommittee on Water 
Resources and Environment will come together. Welcome. Today 
we're having a review of the United States Army Corps of 
Engineers reports to Congress on future water resources 
development and the Chief's Reports.
    Almost 2 years ago, a strong bipartisan message was sent by 
Congress and the President with the enactment of the Water 
Resources Reform and Development Act of 2014. Congress made a 
conscious effort in WRRDA 2014 to enhance America's 
competitiveness by strengthening the investment in the Nation's 
water resources and infrastructure.
    While we're turning the page and beginning the next WRDA 
[Water Resources Development Act] process, the Corps still has 
an issue. More than 40 percent of the implementation guidance 
of WRRDA 2014 needs to be completed.
    WRRDA 2014 contained many important provisions to improve 
the function of the program. However, the Corps seems to be 
slow-walking the implementation guidance. While the WRRDA law 
is transformative and in some places complicated, we remain 
disappointed at the pace and the prioritization in which the 
Corps of Engineers is carrying out the drafting of the 
implementation guidance. After all, WRRDA is the law of the 
land. It's not a suggestion for the administration to casually 
disregard.
    Today we are holding a hearing to review the Army Corps of 
Engineers Chief's Reports and two reports to Congress on future 
water resources development, commonly called the annual report. 
We intend to review these critical documents to ensure they 
balance critical investments in infrastructure along with 
environmental protections.
    Since the first annual report of 2015 did not meet the 
committee's expectations, in June of 2015, the subcommittee 
held a hearing on the implementation of WRRDA 2014 and provided 
guidance to the Corps, especially on how the annual report 
process should be carried out. The annual report delivered 
several weeks ago is an indication that the Corps heard our 
message and the 2016 annual report is an improved product.
    I want to especially highlight the fact that the Corps 
reevaluated many of the projects rejected in the 2015 annual 
report. It has included them for consideration as we move 
forward into WRDA 2016. We intend to move a smaller WRDA bill 
this Congress. This bill will be consensus-driven, bipartisan, 
and address several clarifying and technical changes to WRRDA 
2014. And we will hopefully authorize some of the projects that 
are included in the 2015 and 2016 annual reports.
    The Corps of Engineers constructs projects for the purposes 
of navigation, flood control, shoreline protection, 
hydroelectric power, recreation, water supply, environmental 
protection, restoration and enhancement, and fish and wildlife 
mitigation. The Corps of Engineers planning process considers 
economic development and environmental needs as it addresses 
water resources challenges. The planning process address the 
Nation's water resources needs by exploring a full range of 
alternatives and developing solutions that meet both national 
and local needs.
    The 24 Chief's Reports we are discussing today are the 
result of a rigorous planning process. These projects are 
proposed by non-Federal interests in cooperation and 
consultation with the Corps. All these Chief's Reports, while 
tailored to meet the locally developed needs, have national, 
economic and environmental benefits.
    These Chief's Reports address all three missions of the 
Corps: navigation, flood damage reduction and aquatic ecosystem 
restoration. And they balance economic development and 
environmental considerations equally.
    I want to welcome Secretary Darcy and General Bostick to 
the hearing today, and I also want to recognize sitting in for 
Representative Napolitano is Mrs. Kirkpatrick from Arizona.
    Welcome, and the floor is yours.
    Mrs. Kirkpatrick. Thank you, Mr. Chairman. I welcome our 
two witnesses to this hearing, the Assistant Secretary of the 
Army for Civil Works, the Honorable Jo-Ellen Darcy and the 
Chief of Engineers, Lieutenant General Bostick. Welcome.
    I want to thank you for your service and help with the 
passage of the WRRDA reauthorization bill. I know how 
challenging it was for all involved. This subcommittee convened 
a roundtable of stakeholders and interest groups to discuss 
priorities for a new water resources bill. Individuals at the 
roundtable highlighted the importance of a robust civil works 
program for the protection of communities, infrastructure, 
public health and safety.
    Equally important was a workable process for the Corps to 
partner with local communities to address local water resources 
challenges. In the 2014 Water Resources Reform and Development 
bill, Congress established a new process, the 7001 annual 
report to Congress process for the development of local Corps 
projects and studies.
    Today's hearing will examine how the 7001 process will 
work. First, while it seems that the administration improved 
its process for including projects in the 2016 annual report, 
the fact is that many projects and study requests were screened 
out by administration priority calls rather than using the 
exact criteria in section 7001 of WRRDA 2014. I believe there 
are communities who are still confused by this new process. 
Most likely a number of communities with traditional water 
resources challenges simply do not know about or understand 
this new process and may find themselves on the outside as 
Congress considers a new water resources bill for 2016.
    Their needs are probably no less deserving than many of the 
projects and studies included in the annual report. However, 
because these communities are not included in the annual 
reports or have been included in the appendix, is our response 
going to be ``you don't have the right paperwork so you simply 
have to wait until the next water resources bill''? I have a 
number of low-income communities and tribal communities in my 
district that lack the financial means of other larger 
communities.
    We should not have a process so complicated that 
communities are forced to hire outside individuals to run the 
traps of both congressional committees and administration 
officials. Today's hearing will discuss an array of pending 
Chief's Reports and potential projects and studies that did 
clear the annual report process. These will form the basis of a 
new water resources bill for later this year. Both Congress and 
the Corps need to provide some reasonable direction to 
communities and their elected officials to address their local 
needs. I look forward to your testimony.
    And Mr. Chairman, I have two unanimous consent requests. I 
ask unanimous consent that the statement of the ranking member 
of the Subcommittee on Water Resources and Environment be made 
part of today's hearing record.
    Mr. Gibbs. So ordered.
    Mrs. Kirkpatrick. I ask unanimous consent that the 
statement of a list of organizations included in the packet be 
made part of today's hearing record.
    Mr. Gibbs. So ordered.
    [The written statement of Ranking Member Grace F. 
Napolitano can be found on pages 43-44 and the statements from 
the organizations can be found on pages 66-103.]
    Mrs. Kirkpatrick. Thank you, Mr. Chairman.
    Mr. Gibbs. I recognize the chairman of the T&I 
[Transportation and Infrastructure] Committee, the gentleman 
from Pennsylvania, Chairman Shuster.
    Mr. Shuster. Thank you, very much, Chairman Gibbs. Thank 
you for holding this very valuable hearing. It will help us in 
the development in the next water resources bill.
    Secretary Darcy, welcome, and, General Bostick, welcome. As 
I said when I first became chairman, I think it's critical that 
we get back to regular order, get back to going through this 
water process every Congress so that Congress maintains its 
role in overseeing the Corps work and improving your 
infrastructure. So, Secretary Darcy and General Bostick, here 
we go again.
    We've got a number of members on the committee who care 
deeply about these issues, a number of new members. I see 
Congressman Rouzer from North Carolina and Bost from Illinois 
who have, through their districts, tremendous interest in 
what's going on with beach restoration or within the waterway 
system, flood protection.
    Congressman Graves is here, and he's from the Louisiana 
coast. Nobody knows better than him what happens in the 
waterways in coastal restoration. And on that side of the aisle 
from Mr. DeFazio down, you have a lot of people very 
interested. So we're looking forward to working with both sides 
of the aisle to produce a bipartisan water resources act for 
2016.
    The Chief's Reports that have been delivered were 23, I've 
been tapped on the shoulder and told now it's 24, so two dozen. 
These reports have undergone rigorous economic and 
environmental analysis and many may be included in the next 
WRDA reauthorization. The annual report required under WRRDA 
2014 allows the Corps the opportunity to provide Congress with 
a list of non-Federal project-sponsored priorities that 
reflects the needs of the Nation, and that report was intended 
to reflect the broad spectrum of activities for Congress to 
consider rather than just the administration's priorities.
    While the first annual report delivered last year did not 
meet our expectations--quite frankly we were very disappointed 
in it--I think there was a major improvement on the second 
annual report, and I thank you for stepping up your game and we 
continue to work to improve that. We appreciate that the Corps 
reevaluated projects rejected in the 2015 report, but more work 
needs to be done for the Corps to comply with the law. I expect 
the Corps will address these and other concerns as we, in 
Congress, look to the next Water Resources Development Act.
    So again, looking forward to working with you, and I know 
many members on the committee are eager to get started on 
crafting this legislation.
    And with that, I yield back.
    Mr. Gibbs. Next I want to recognize the ranking member of 
the full Committee on T&I, the gentleman from Oregon, Mr. 
DeFazio.
    Mr. DeFazio. Thank you, Mr. Chairman.
    Welcome, Ms. Darcy, General Bostick, and thanks for what 
you do.
    I'm going to return to a theme I've brought up for years 
which is that Congress is not adequately funding the Corps of 
Engineers. We have a backlog of somewhere between $48 billion 
and $54 billion for ongoing budgeted projects, for instance, 
spillways for the dams on the Willamette River, which restrict 
our capability of flood control, and this might be a year when 
we're going to need full flood control, and we won't have it.
    The Corps has a plan to reduce--replace these spillways 
which have far exceeded their lifespan. But it's drawn out over 
years because of a lack of resources. And that's--that occurs 
all around the country. I have jetties that are failing and if 
they go to full failure, they're more expensive than if we get 
in there and do maintenance work. Again, for Coos Bay, we've 
begun at least on the Columbia River on the critical jetty 
there in the forest harbor entrance in North America.
    But that's a huge backlog. And we began to deal with at 
least one side of it. Obviously the Corps jurisdiction goes far 
beyond things that are eligible for moneys out of the Harbor 
Maintenance Trust Fund, but when they have to balance between 
harbor maintenance issues and inland issues or dams or 
whatever, it makes their job all the more difficult.
    So I congratulate the chairman on what we did and other 
Members who were involved in that a couple years ago. I 
actually started working on the idea of capturing the Harbor 
Maintenance Trust Fund with Bill's dad, Bud, back in the mid-
1990s, and it took us a long time to get there, but Bill 
delivered.
    Now the administration, unfortunately, I don't know what 
was submitted by the Corps, but after the green eyeshade trolls 
at OMB [Office of Management and Budget] got done with it, you 
didn't meet our goal, which was 71 percent in the President's 
recommended budget of the harbor maintenance taxes.
    Now this is something that should resonate on both sides of 
the aisle. We assess a tax, a minuscule tax. It's 1.25 mils, 
that is .125 cents on the value of products moving through our 
ports. It raises about $1.5 billion a year, yet for years 
Congress has diverted those funds elsewhere, who knows where or 
for what, as opposed to the intended purpose. We have begun to 
move toward full allocation of those funds for their intended 
purpose, I hope, in the next WRDA reauthorization. We can move 
that process even more definitively and more quickly.
    But I would also second Representative Kirkpatrick's 
concerns about the difficulty of the application process when 
we only had 61 communities that submitted. Back in 2007 we had 
3,000 project and policy proposals that were vetted as we 
developed WRDA 2007. And now there's only 61 projects across 
the whole United States that might be eligible? I think, as she 
said, the process is too complicated, and it needs some 
additional work on the administrative side.
    But then also to chastise the majority a little bit, you 
know, this wacky ban on earmarks where you say, gee, we don't 
want elected representatives of the people to determine where 
their tax dollars are spent; we want the bureaucrats in 
Washington, DC, to decide where that money will be spent. And 
this--we've tied our hands. We used to do study resolutions all 
the time. We don't do study resolutions anymore because they're 
considered earmarks. I mean how stupid is that?
    So I would hope that we could also confront the--our in-
house crippling of the--that has been put in place under 
misbegotten rules and we could challenge that also in this next 
WRDA bill. But in the interim, we're stuck with the workaround 
process, and that does need to be simplified so that more 
communities who have needs will apply.
    With that, Mr. Chairman, I yield back the balance of my 
time. Thank you.
    Mr. Gibbs. Thank you.
    At this time, I want to welcome the Assistant Secretary of 
the Army for Civil Works, Secretary Darcy and Lieutenant 
General Thomas Bostick, who is Chief of Engineers of the U.S. 
Army Corps of Engineers. And, Secretary, the floor is yours. 
Welcome.

 TESTIMONY OF HON. JO-ELLEN DARCY, ASSISTANT SECRETARY OF THE 
 ARMY (CIVIL WORKS); AND LIEUTENANT GENERAL THOMAS P. BOSTICK, 
        CHIEF OF ENGINEERS, U.S. ARMY CORPS OF ENGINEERS

    Ms. Darcy. Thank you, Mr. Chairman, Chairman Shuster, 
ranking members. Thank you very much for the opportunity to 
testify today to discuss the 2016 report to Congress that was 
submitted in response to section 7001 of the Water Resources 
Reform and Development Act of 2014, the Chief's Reports as well 
as the Post-Authorization Change Reports.
    I'd like to outline the process by which the annual report 
to Congress in response to this section was developed and the 
requirements and criteria of projects meet for inclusion in the 
report. Section 7001 of WRRDA 2014 requires an annual notice to 
be published in the Federal Register requesting proposals from 
non-Federal interests for proposed feasibility studies and 
proposed modifications to authorize water resources development 
projects and feasibility studies.
    Section 7001 then requires that the Secretary of the Army 
annually submit to Congress a report that includes feasibility 
reports, proposed feasibility studies and proposed 
modifications to authorized water resources projects or 
feasibility studies that satisfy five specific criteria. The 
notice for the 2016 report submission was published on May 26th 
of 2015. The deadline for non-Federal interests to submit their 
proposals to the Corps was September 23rd of 2015.
    We evaluated proposals strictly based on the five statutory 
criteria.
    Mr. Gibbs. Secretary, can you pull the mic a little closer 
to you? We're having--some of us are having trouble hearing 
you. Thank you.
    Ms. Darcy. Is that better? We evaluated the proposals 
strictly based on the five statutory criteria. In order to 
provide more transparency to non-Federal interests, we sought 
to clarify in the public notice the process and the criteria 
under which the proposals would be evaluated. We did this in 
developing this 2016 report.
    We also implemented a Web-based proposal submission process 
ensuring greater consistency in the content used for the 
evaluation of the proposals. We accounted for all Chief's 
Reports completed since the enactment of WRRDA 2014 and 
increased our outreach to non-Federal interests throughout the 
process. We also undertook a one-time reevaluation of proposals 
submitted in 2014 which were included in last year's appendix 
in light of this revised process.
    The proposals were reviewed at the district, at the 
division and at the headquarters level. The five criteria that 
the proposals must meet are they must be related to missions 
and authorities of the Corps; require specific congressional 
authorization, including an act of Congress; the proposal must 
not have been congressionally authorized; it must not have been 
included in the report table of any previous annual report; and 
if authorized, the project could be carried out by the Corps of 
Engineers.
    There are requirements that all water resources development 
projects must meet before the Corps can request Federal funds 
to proceed to construction. These requirements are included in 
our joint written testimony that you have before you. As was 
stated earlier, a total of 61 proposals were received; 25 were 
for new feasibility studies, 34 were for modifications to 
existing projects or changes to legislation, and 2 were 
proposals for a study modification. Of these proposals 30 met 
the criteria and are listed in the annual report table. The 31 
proposals that did not meet the criteria are in the appendix.
    The two primary reasons for proposals that were included in 
the appendix are that either authority already exists to 
perform the requested work or the proposal did not fit within 
the identified Corps core mission areas. Where authority 
already exists to undertake the efforts described in the 
proposals, inclusion in the appendix to the 2016 annual report 
does not preclude the Army from carrying out either the study 
or construction.
    Mr. Chairman, this concludes my statement, and we, again, 
appreciate the opportunity to testify today and look forward to 
answering questions as well as working with you on a WRDA 2016.
    Mr. Gibbs. Thank you.
    General Bostick, the floor is yours. Welcome.
    General Bostick. Chairman Gibbs, Chairman Shuster and 
distinguished members of the subcommittee, thank you for the 
opportunity to testify on the annual report due to Congress and 
the summary of Chief's Reports completed since the passage of 
WRRDA 2014.
    First, I want to thank this committee for your great 
support of the Civil Works program. Your work has been 
essential in all of the progress that has been made over the 
years. The details about the Chief's Reports submitted to 
Congress are contained within my written statement. I would 
like to provide a brief update on the progress we've made with 
our four campaign goals and provide some of my perspectives on 
water resources challenges facing the Nation.
    First, support national security. We like to talk about the 
investment in the Civil Works project, not the cost. It is an 
investment in the work that we do to provide protection to the 
American people. But it's also an investment in our people. And 
whether they serve in Iraq, Afghanistan, Pakistan, India or in 
over 100 countries, our people are making a difference.
    As part of Civil Works transformation, we continue to 
improve and modernize the project planning process. Since the 
inception of Civil Works transformation in 2008, 59 Chief's 
Reports have been completed with recommendations of over $30 
billion in water resources investments.
    During the first 4 years of Civil Works transformation, 19 
Chief's Reports were completed. In the last 4 years, the number 
is 40, more than doubling our progress. We're on schedule to 
complete another 12 reports by the end of the fiscal year. One 
Chief's Report I just signed yesterday; it is the Princeville, 
North Carolina, Flood Risk Management project. This brings the 
number of reports signed but which have not completed executive 
branch review to 10.
    While we may have made great progress, we can and must 
continue to improve. The third area of our campaign goals is to 
reduce disaster risks. We had historic floods in 2011, 2015 and 
again in 2016. And because the systems performed as designed, 
many Americans do not even realize the magnitude of these 
floods. In addition to the fact that no one died in these 
events, the return on investment is $45 for every $1 invested 
in the Mississippi River and Tributaries system.
    Approximately $234 billion of damages have been prevented 
over time due to these investments. As you know, our Nation's 
infrastructure is aging. The American Society of Civil 
Engineers rates the Nation's overall infrastructure at a D-
plus. The Corps is managing 225 billion dollars' worth of that 
infrastructure. Funding across the Federal Government remains 
challenging. In order to complete the construction of projects 
that we are currently budgeting, we would require $19.7 
billion. With construction funding at just over $1 billion per 
year, it would take us nearly 20 years to complete the current 
projects.
    As a Nation we must continue to think creatively and 
innovatively about how we gain support beyond the Federal 
Government in areas such as public-private partnerships so that 
we can complete these projects and future projects in a more 
reasonable amount of time.
    Finally, our last goal is prepare for tomorrow. It's about 
our people. In the nearly 4 years I have been in command, I've 
traveled to all 43 districts in the 9 divisions to see the 
vital work that we conduct at home and abroad. I remain 
convinced that we have an exceptionally skilled and talented 
workforce. I'm very proud of the people who serve in the Army 
Corps of Engineers and our fellow teammates including military, 
civilian, local, Federal, and of course our contractors.
    As we have done for over 240 years, the U.S. Army Corps of 
Engineers remains focused on engineering solutions to our 
Nation's toughest challenges. Thank you again for the 
opportunity today, and I look forward to your questions.
    Mr. Gibbs. Thank you, General.
    And there's time, Chairman Shuster, for questions.
    Mr. Shuster. Thank you, Chairman Gibbs.
    And General Bostick, I just want to echo your same 
sentiments here. The men and women that serve in our military 
in whatever capacity, we certainly appreciate what they do for 
our Nation to keep us safe and hopefully we keep them out of 
harm's way. So thank you for that.
    I just want to respond to the ranking member talking about 
the funding levels which he's correct. I think the 
congressional budget, we hit those targets. The administration 
did not hit those targets, and in the last WRRDA, WRRDA 2014, 
we tried to move in a direction to take those trust funds, the 
Harbor Maintenance Trust Fund and the Inland Waterways Trust 
Fund, off budget. That's going to be something that we need to 
work together across the aisle to eventually do because I think 
that just like we did with the Highway Trust Fund, those 
dollars are put into a fund, and the American people trust 
we're going to spend them in an appropriate way, the way they 
were intended.
    And of course that hasn't happened. And if we were able to 
do that, take them off budget, take them, make sure they only 
go for those purposes that they were intended, we'd be able to 
solve a lot of our problems when it comes to our harbors and 
waterways in this country. So that's something I want to 
continue to work to do.
    First question, Secretary Darcy. Copies of completed 
Chief's Reports are sent to Congress prior to executive branch 
review. I wonder why doesn't the administration furnish 
Congress copies of Post-Authorization Change Reports prior to 
executive branch review?
    Ms. Darcy. We currently are reviewing the Post-
Authorization Change Reports within the administration before 
we send them to Congress. They're sort of a different animal 
than the Chief's Reports.
    Mr. Shuster. Sure.
    Ms. Darcy. The Chief's Reports, once they are signed by the 
Chief, come directly to Congress; and that's in the statute.
    Mr. Shuster. And so that may be something we've got to look 
at putting in the statutes so that when you do post a change 
report, it comes to us, too, so that we can begin that review 
process. That is something you would recommend?
    Ms. Darcy. It's not something I would recommend; I 
understand why the Members would want to see those.
    Mr. Shuster. Thank you.
    General Bostick, in October of 2014, the Corps of Engineers 
Civil Works Review Board met and approved a Chief's Report 
related to three replacement navigation locks on the Upper Ohio 
River. While at one point the draft schedules show the Chief's 
Report being signed January of 2015, no Chief's Report has been 
submitted at this time to Congress. And since the Corps has 
suggested that the failure of only one of the three existing 
locks would be catastrophic to the inland navigational system, 
I'm told over $1 billion in economic harm would occur. Could 
you update us on the status of that Chief's Report?
    General Bostick. We expect that the report will be 
completed in October of this year, Mr. Chairman. What happened 
in this particular case was that the independent external peer 
review identified that, during the duration of a closure 
following a significant incident without project condition, 
there would be significant issues. And based on that, we had to 
delay the State and agency review, rerun our models and then 
make an assessment of their concerns. So we've done that in the 
Pittsburgh district. That effort has taken the better part of a 
year. The review is ongoing, and we expect the report to be 
completed by October.
    Mr. Shuster. You're highly confident in----
    General Bostick. I'm confident that it will be.
    Mr. Shuster. OK. Because, as you might know, I'm deeply 
concerned about that. That project means an awful lot to the 
economy of western Pennsylvania. And of course with our shale 
play, while the gas we produce there is down, we believe it's 
coming back and that water system is absolutely critical to 
getting product in and product out of that--of the Marcellus 
gas play. So I'll be following it very closely and I appreciate 
you keeping us updated on that.
    General Bostick. Mr. Chairman, I just do need to clarify. I 
meant to say the economic review that we're doing will be 
completed in October. We still then need to do State and agency 
review to complete the Chief's Report.
    Mr. Shuster. So we're not even close to a Chief's Report 
then?
    General Bostick. The Chief's Report would come sometime 
after the State and agency review assuming there are no 
significant issues. But based on the independent review, and 
this one issue that we've resolved, I would assume that most of 
the issues have been identified. But we still have to do a 
State and agency review. So I can't really estimate when the 
Chief's Report would be complete.
    Mr. Shuster. Taking a look at 2017 maybe.
    General Bostick. I really couldn't give you a date on that.
    Mr. Shuster. OK, well, again, that's very concerning 
because this has been going on for I think 8 to 9 years. And 
again, the good news is we put it into law, and again your 
folks worked with us and really it was your idea, the 3x3x3 
concept. Again, this one's been out there forever.
    So any way you can accelerate that, any way we can help you 
to accelerate that we certainly would because it means an awful 
lot to the economy, as I said, of western Pennsylvania and, in 
fact, to the economy of the United States when gas prices go up 
a bit and they're able to get it out of the ground. Getting 
product in to develop it and getting product out is going to be 
critical. So again, I'm going to be watching very, very closely 
how this proceeds. So thank you very much.
    General Bostick. And we'll follow up with you on that.
    Mr. Shuster. Yield back. Thank you.
    Mr. Gibbs. Mrs. Kirkpatrick.
    Mrs. Kirkpatrick. Thank you, Assistant Secretary Darcy and 
General Bostick, for your help with three Corps projects in my 
district. I have concerns about two of these projects, and that 
is the Rio de Flag and the Winslow levee.
    So my first question has to do with the Rio de Flag. And 
while I appreciate the allocating funds in the fiscal year 2016 
workplan to complete the LRR [land resource regions], can you 
assure me and this committee that the LRR will be completed 
expeditiously? Can you commit to a concurrent review with 
headquarters and your office to reduce the amount of time for 
completion? My goal is to see this project receive a new, 
higher authorization number in WRDA 2016.
    Assistant Secretary Darcy and General Bostick, can I get 
your assurance that you will help with this endeavor?
    Ms. Darcy. Yes.
    General Bostick. Absolutely.
    Mrs. Kirkpatrick. General Bostick?
    General Bostick. Absolutely. We're working all three levels 
concurrently now, and we're aggressively moving forward to 
complete it.
    Mrs. Kirkpatrick. OK. Thank you. My second question has to 
do with the Winslow levee. Regarding the Little Colorado River 
in Winslow, what can you tell me about completion of their 
Chief's Report? Being listed in the 7001 report does not--does 
this cover authorization for construction once the Chief's 
Report is complete, or does it need to be resubmitted?
    General Bostick. I don't have the answer to that. We'll 
have to follow up with you.
    Mrs. Kirkpatrick. Secretary Darcy?
    Ms. Darcy. It is in the report, in the 7001 report.
    Mrs. Kirkpatrick. But my question is: Does that 
authorization include construction once the Chief's Report is 
complete?
    Ms. Darcy. No, it would need to have a completed Chief's 
Report and get authorized for construction.
    Mrs. Kirkpatrick. And then does it have to be resubmitted 
for construction?
    Ms. Darcy. No.
    Mrs. Kirkpatrick. OK. Thank you for clarifying that. I 
yield back.
    Mr. Gibbs. Thank you. So I yield to myself.
    Secretary Darcy, since WRRDA 2014 was enacted, no general 
reevaluation reports have been delivered to Congress. Since 
these documents are analogous to Chief's Reports, how many are 
currently under development, and then can you provide us a 
schedule of when they will be completed?
    Ms. Darcy. Yes, I'd be happy to provide that--I don't know 
exactly how many, but I will provide that to you.
    Mr. Gibbs. But there are some, because that's----
    Ms. Darcy. Yes, there are. I think----
    Mr. Gibbs. These are really--reevaluating prior Chief's 
Reports seems like it's pretty important.
    Ms. Darcy. It is, and I want to say three, but I want to 
check to make sure, and then we'll get you that number.
    Mr. Gibbs. OK. Secretary, in the proposed Chief's Report on 
the Los Angeles River ecosystem project, it was proposed there 
was going to be a cost of about $161 million, and now the 
completed Chief's Report, the Federal cost has increased to 
more than $200 million additional. So it puts the cost at about 
$375 million. What's going on with that project in Los Angeles 
River?
    Ms. Darcy. The Los Angeles River ecosystem restoration 
project is what you're talking about? There are several 
alternatives that were considered in the development of that 
project, and the final alternative--that was the locally 
preferred alternative--would be more expansive than one of the 
other alternatives, and I think that's what's attributing to 
the cost, because there's more land involved, and it would be 
more real estate development or real estate purchasing that 
would need to be acquired by the city of Los Angeles.
    Mr. Gibbs. Because I visited there a couple years ago, 
and--I referred to it as the cement trough, and I think the 
locals want to actually change some of that and make it more 
eco-friendly, right, restoration?
    Ms. Darcy. Right. The project purpose is ecosystem 
restoration.
    Mr. Gibbs. That wasn't part of the first Chief's Report, 
changing some of that to more environmentally friendly I guess?
    Ms. Darcy. They were looking at more alternatives and more 
land--it was mostly for habitat, increased----
    Mr. Gibbs. Yeah, that's what I mean.
    Ms. Darcy. Right.
    Mr. Gibbs. OK. So the scope did change some then?
    Ms. Darcy. Right.
    Mr. Gibbs. OK. Because I was understanding the scope wasn't 
changing. OK. That's good to know. I want to talk a little bit 
here about the process, the annual report. I have a concern 
that maybe the Corps hasn't done a well enough job 
communicating down to the regional and especially the district 
levels of how the new process works, and I think Ranking Member 
DeFazio kind of raised the issue of 61 projects being submitted 
to the 2016 annual report, while in WRDA 2007 there were 3,000-
plus.
    So the questions, there is: what's the process, how are you 
verifying the process, how are you working with local project 
sponsors so they understand. Because I've had some local 
stakeholders in my office in the past year and they had no clue 
of what the new process was to submit these projects. So how is 
the Corps working to facilitate the new method so we get this 
working better?
    Ms. Darcy. I think what we learned from last year--and I 
hope we can recognize that there's been an improvement made 
since last year's report--we've done a couple of things. One is 
in the public notice that goes out in the Federal Register, 
we've outlined the process for the local sponsors so that 
there's more of a template about what's required in order to 
submit your proposal. We also have put this all online so that 
it's Web-based so that everybody can see what the proposals are 
and everyone can see what's required in order to submit the 
proposals.
    We also, at the district level, have engaged all of our 
District Commanders and staff there to help local sponsors in 
developing their proposals as well as submitting them because 
they work through the district, and then it goes to the 
division, then it comes to headquarters online so that we can 
evaluate them.
    Mr. Gibbs. That communication, especially with the District 
Commanders, do you have a time of when that started? Because 
we've seen a lot of differences between districts in the 
interpretation of this and how they're handling that. We passed 
this bill in June 2014. When did you start implementing that 
conversation? Has it been fairly recent, or was it----
    Ms. Darcy. It was in response to some of the concerns 
expressed by the committee last year as far as the fact that we 
needed to do more outreach. It was developed after the 2015 
submittal of the report, so we're hoping that the 2016 report 
can show some signs of improvement in that communication.
    Mr. Gibbs. General Bostick, do you want to comment on that, 
too, since----
    General Bostick. Yes, we always are concerned about 
variability in how we approach things between our districts, so 
this is a constant effort from the leadership at every level to 
ensure that our District Commanders understand the policies and 
the laws and what we're trying to do. I would say even from the 
very beginning we tried to ensure that this was understood, 
that 7001 was understood. We work with stakeholders all the 
time.
    Part of this is communications on our part from the 
headquarters, to ensure that our districts understood the 
guidance that needed to be provided. And once we were able to 
get that clarity, I think we've seen it take off. Even at our 
headquarters you saw in the reports that we provided to you 
last year we did not have the kind of fidelity and clarity 
which resulted in a report that was somewhat disappointing to 
the Congress. And as Secretary Darcy said, immediately after 
that we were able to push out and set up more communication 
mechanisms to allow the districts to be----
    Mr. Gibbs. That's why I brought up my first additional 
questions because I think we really need to hold that up 
because this process has to work, and it's just human nature, 
communications sometimes, it's just human nature that we always 
have to work at. It's a challenge, so I appreciate your 
comments. And this time, Mr. Garamendi, questions?
    Mr. Garamendi. Thank you, Mr. Chairman.
    A couple of issues. First of all, my district has some 
1,100 miles of levees and some very serious flood control 
issues. Your Sacramento district office has been very aware of 
the issues and very in-tune with the local concerns, and I want 
to thank the Corps and particularly the Sacramento office and 
Colonel Farrell for their constant attention to the issues and 
their willingness and, in fact, their constant engagement with 
the various flood control districts, reclamation districts in 
the area. So basically doing a very good job all the way 
around.
    There is one question just outside my specific district, 
but very much a part of the community, which is the West 
Sacramento issue. That question arises 53,000 residents in an 
area that is subject to significant flooding. And the question 
is: Will the Chief's Report, which I understand is in process, 
be available sometime this spring probably, possibly in April, 
so that we might include that project in the new WRDA bill?
    Ms. Darcy. Yes.
    Mr. Garamendi. Terrific answer. Thank you. [Laughter.] No 
elaboration needed. The rest of the programs are underway. Your 
district office is working very diligently, and I want to thank 
you for the headquarters and for the work that's being done. 
General, thank you for the service and for taking care of the 
issues in my district. Thank you.
    Mr. Gibbs. Mr. Webster.
    Mr. Webster. Thank you, Mr. Chairman.
    Secretary Darcy, the Port of Tampa is planning to move 
forward with authorized improvements to the Tampa Bay Big Bend 
Channel. And they had formed a public-private partnership that 
would cover up to over 70 percent of the cost of that project. 
The delegation applied and was part of correspondence dealing 
with getting Federal contributions to that public-private 
partnership, and the answer to that was that that project would 
have to compete as a----
    Ms. Frankel. Excuse me, Mr. Webster. Could you talk a 
little louder?
    Mr. Webster. Sure.
    Ms. Frankel. Thanks.
    Mr. Webster. That project needed to compete with Federal 
funds as a new start program, and the new start program is for 
construction. The Big Bend navigation project has been a 
significant part of the construction appropriations since 2003 
when it got a designation of a new start and has been funded 
several times since then. Why did the categorizations change 
from continuing or ongoing to a new start?
    Ms. Darcy. Congressman, unless the Chief knows the--I would 
have to get back to you, because I want to give you an answer, 
but I don't know the answer at this time.
    General Bostick. I don't know the answer as well, but given 
what you've said, if it is going to a public-private 
partnership, that changes the project, and we would have to go 
back and look at it. We're looking at public-private 
partnerships now, and those would have to be a new start if 
we're moving in that direction. So I don't know the details of 
the Tampa public-private partnership, but we'll take a look at 
it and get back to you.
    Mr. Webster. Even though it had been approved as a new 
start in previous years and gotten funding for several years 
after that?
    General Bostick. I believe so. It depends on what the 
public-private partnership or what the approval was for. If it 
was a Federal and a non-Federal sponsor working together on a 
project that was defined, clearly, based on the Chief's 
Report--and now we're going to turn it into a public-private 
partnership--that would be a different project. But I don't 
know the details of----
    Mr. Webster. I think our idea was to move up further on the 
ladder because we could get about 70 percent paid for by 
locals. And so we thought that would enhance our opportunity as 
opposed to sort of push it aside.
    General Bostick. Well, as I said in my opening remarks, I 
do think that we have to look at opportunities like this as 
part of the solution for how we complete these projects faster 
and work in partnership with communities and private entities, 
so we'll take a look at this and get back to you.
    Mr. Webster. OK. I have one other question about the 
Kissimmee River project. One of the showcases for the 
Everglades restoration in our State, and I understand the State 
of Florida did critical engineering work for the project that 
would save money. However, because of that a legislative 
adjustment was necessary in order for the State to receive 
credit for the engineering work. And I understand the Corps 
supports us and that project and the change. But could you tell 
me or get for me the status of the Post-Authorization Change 
Report for this legislative remedy? If you could do that, that 
would be helpful. I don't know if that's a question or not, 
just either yes or no.
    General Bostick. We'll get the answer, but my understanding 
of the Post-Authorization Change Report is expected to be 
completed in August of this year.
    Mr. Webster. OK. Thank you. Yield back.
    Mr. Gibbs. Ms. Frankel.
    Ms. Frankel. Thank you. Thank you both for your service. I 
know you always hear a lot of complaints from our offices, but 
I just--I want to thank you. We've had a very cooperative, 
excellent relationship with you all, and we're very 
appreciative of that.
    I have a few local issues that I would just like to go over 
with you. In Palm Beach County, as you know, the--our Lake 
Worth Inlet is very important both to recreation and commerce 
there. And you have all--you have spent many millions of 
dollars over the years dredging that inlet. We have a project 
there called the sand transfer plant, which we believe reduces 
the need for some of the dredging and saves considerable 
expense to the Corps.
    And so one of my--my question really is: What do you think 
about assisting local communities who find less expensive and 
more efficient operations to maintain the channels and inlets?
    Ms. Darcy. Is the question whether we would be supportive 
of local interests taking on that----
    Ms. Frankel. Well, no, the question is whether or not you 
would pay for it instead of it, for example, being considered 
an earmark. In other words, I think we discussed a little bit 
about this when we had our meeting on water a couple weeks ago 
is: If a local community has an alternative method that would 
reduce the expense of the Corps, but it may be unique to that 
particular area, why would that be considered an earmark and 
not something that the Corps could help fund?
    Ms. Darcy. I guess from what I know of this in my view it 
wouldn't be considered an earmark.
    Ms. Frankel. Well, OK, well, we're going to write that 
down. [Laughter.] OK, well, that's good. OK. I like that 
answer. Herbert Hoover dike which serves to protect the 
communities and farmlands surrounding Lake Okeechobee from 
flooding, this is a 143-mile dike. It's susceptible to erosion 
and considered one of the country's most at risk of failing. 
The FY [fiscal year] 2016 workplan included $64 million for 
construction and the President's FY 2017 budget included almost 
$50 million. My question is if you know: Is the amount of money 
that's now projected for the current budget, will it be enough 
for this year to fund what you can do? Because this--these 
repairs need to be moved forward as quickly as possible.
    Ms. Darcy. We will be able to meet the needs of that 
project in this fiscal year.
    Ms. Frankel. OK. Thank you very much. On the Port of Palm 
Beach, we actually finally have something that all the 
communities agree on, which is a welcome change, which is the 
full maintenance dredge that will hopefully alleviate safety 
issues for 2 to 3 years. It is my understanding, though, from 
the Corps that an additional $900,000 is needed to complete the 
dredge which the Corps has told my office they intend to find 
through reprogramming. Can you commit to that?
    General Bostick. We would have to look at that. I couldn't 
commit to it here.
    Ms. Frankel. OK. Well, will you get back to me on that. 
Yes?
    General Bostick. We will.
    Ms. Frankel. Next is just really a big thank you on Port 
Everglades. That expansion is a half a billion dollar economic 
impact to south Florida. I want to just thank you so much on 
including that in this report and for the cooperation we've 
been getting. Excellent. Thank you. That's easy. And next as 
you know, the restoration of Port--of the Everglades, different 
from Port Everglades, serves drinking water to over 9 million 
people in Florida, has great economic impact. There are a 
number of projects that you are working on. I just have some 
questions on them.
    The Broward County Water Preserve Areas and the Biscayne 
Bay coastal wetlands are stuck in the PPA [project partnership 
agreement] negotiation phase. The Picayune Strand and Kissimmee 
River both require reports from the Corps. Would you be able to 
provide us--obviously not right this second, but with an update 
on these particular projects?
    Ms. Darcy. Yes, we will.
    Ms. Frankel. And I had--just for the coastal communities--
OK, very quick. The coastal communities just some questions on 
the beach restoration because the beaches are much more than 
just places for people to get sunburns as you know. The--a 
couple questions. Can you--our stakeholders are asking that you 
take some more time to work with them in terms of when you 
decide which projects to do. And next question they had on that 
was what the Corps is doing to ensure that all districts are 
using dredge sediment as a resource to improve coastal 
protection. If you could, just get back on those questions 
because I've taken my time.
    Ms. Darcy. OK.
    General Bostick. We will.
    Ms. Frankel. OK. Thank you, Mr. Chair.
    Mr. Gibbs. Mr. Graves.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. And I 
want to thank you and Chairman Shuster, the ranking member, 
everyone who came down to New Orleans, for you all taking the 
time to come to south Louisiana to take a look at all the 
challenges we have going on in regard to balancing water 
resources.
    Madam Secretary, I didn't want to ask this question, but 
Let Mon told me I should. [Laughter.] It's no secret that we 
have pretty strong frustrations in regard to the efficiency of 
the Corps of Engineers in regard to project delivery. We could 
talk about the Morganza project, been in study phase for 24 
years now; the West Shore project that just issued a Chief's 
Report after being studied for 44 years about. Obviously if 
that same scenario were in the private sector, that 
construction company would have been shut down, appropriately, 
many, many decades ago.
    Right now you're seeing an interesting trend within the 
Federal Government, and I'm not sure if anyone's really paying 
attention to it, but, Mr. Chairman, I think it's something we 
should be paying very close attention to in this committee. 
You're seeing Corps of Engineers budget numbers that are 
relatively stagnant. Yet you saw the President come out this 
year and announce that he was going to do a $2 billion coastal 
resiliency fund, which is your mission. You saw HUD [U.S. 
Department of Housing and Urban Development] last year, if I 
recall, was $1 billion resiliency, which is your mission. 
You've seen FEMA [Federal Emergency Management Agency] 
repeatedly awarding grants that under hazard mitigation grant 
program pre-disaster mitigation which effectively is your 
mission as well.
    One difference with all of those other efforts that really 
distinguished them from the Corps of Engineers is that in 
many--in fact, in all cases, those are largely grant programs 
that cooperate with State and local governments to carry out 
the projects. And going back to Congresswoman Frankel's 
comments earlier about the efficiency of delivery, why is it 
that the Corps of Engineers remains stagnant and all of the 
funding and opportunities and actual progress is being done in 
these other agencies?
    Ms. Darcy. Well, as you are aware, as you mentioned, these 
are granting agencies. The Corps of Engineers is not a granting 
agency. We're a project funding agency. So that's where----
    Mr. Graves of Louisiana. Should that change? I mean is a 
project in study phase for 40-something years, is that OK?
    Ms. Darcy. No, that's why we've instituted smart planning 
and 3x3x3 so that we can be more efficient in our planning 
process. Because I think that 40 years is too long to be 
studying anything.
    Mr. Graves of Louisiana. Well, I just--I think that if you 
look at the numbers, I think some of the frustrations--
incredible frustrations that we have are being verified in the 
budget process. And if I were any of the people sitting right 
there in the front row and at the table, I would take that 
threat very seriously and be thinking about whether--what 
changes you need to make in order to efficiently deliver 
projects.
    And one thing that I think is really important to connect 
the dots on with some of the bigger waters--flood insurance 
reforms that happened in 2012 and then again in 2014, the 
Corps, by them choosing--by you choosing winners and losers in 
terms of which projects are going to proceed, which ones 
aren't, which ones are going to remain in this stagnant phase 
for decades, you're compounding the problem by leaving these 
people vulnerable with the belief that they have some 
authorized project that's going to pop up at some point. Yet 
they're subject to exponentially higher flood insurance rates. 
When you add in levee standards and other things, you're really 
causing exponential impacts on these communities. I mean there 
are real repercussions of these delayed projects, and I think 
it's something that needs to be thoughtfully considered by this 
committee as we proceed on the new WRDA.
    I want to go to the HPS [hurricane protection system] in 
the greater New Orleans area. When President Bush was 
President, he issued a document saying that the repairs and 
recovery of the HPS was going to be completed in 2009. And I've 
had people at the Corps refute that. I've got a copy of the 
document. I'd be happy to share it with you. It was when he 
gave his Jackson Square speech. As you recall, in 2008, we 
signed a 30-year payback agreement--deferred payment agreement 
on the hurricane protection system recovery work. That work, 
again, was supposed to be completed in 2009.
    The Corps came back and started issuing documents saying it 
was going to be completed in 2010. At some point, the Corps 
held a day of recognition ceremony or something, which I'm not 
real sure what that was. But here's the reality. The reality is 
we're still not at that finish line. Hurricane Katrina was in 
2005, we're 11 years later or approaching 11 years. We haven't 
hit that deadline yet. What's happened during this time in a 
deferred payment agreement is that the principal has grown to 
where we're at the point now that the payments by the State 
whenever this project is finished, the payments are going to be 
almost double what they were supposed to be because of the 
accumulating interest by this delayed implementation or 
completion of the project. What do you say to that?
    Ms. Darcy. The delay in implementation of which----
    Mr. Graves of Louisiana. Of the hurricane protection 
system, the SELA [Southeast Louisiana Urban Flood Damage 
Reduction Project], the New Orleans to Venice, the Lake 
Pontchartrain vicinity, Westbank, the HPS, which you all came 
up with the new acronym HSDRRS [Hurricane and Storm Damage Risk 
Reduction System] because that rolls off the tongue I think. 
So----
    Ms. Darcy. That's the--what we considered with the $14 
billion of Federal investment.
    Mr. Graves of Louisiana. Sure. Right.
    Ms. Darcy. The completion of the other projects that you're 
referring to I think are all hopefully on some kind of glide 
path, the details of which I don't have at the ready at the 
moment.
    Mr. Graves of Louisiana. Does that concern you at all, 
though, that the State is facing a payback agreement of nearly 
double what it was before when that agency is the same agency 
that's supposed to be helping to restore the coast and do all 
the other things in terms of mitigating some of the impacts of 
Federal actions?
    Ms. Darcy. It is concerning that that would be a doubling 
for the State's responsibility.
    Mr. Graves of Louisiana. Taking away money for ecosystem 
restoration to other important priorities? Thank you----
    General Bostick. And one of the things that I would offer 
is that when you talk about civilian organizations and that 
folks might be fired if they took this long and you talk about 
different agencies and what they do, there's probably no other 
organization that has to integrate like the Corps across all 
Federal agencies. If you look at something like the 3x3x3 that 
was put into law, that applies to the Corps, yet we have to 
work with all Federal agencies, we have to work with locals, 
and they don't necessarily need to buy into the 3x3x3.
    If you look at BRAC [Base Realignment and Closure] 2005, 
$12\1/2\ billion in construction completed in 7 years, you look 
at the large proportion of the hurricane storm damage risk 
reduction, again, completed in 7 years, there's no other 
organization in the world that could accomplish this. I brought 
the Chinese Minister of Water Resources here. He said no other 
organization in the world could have done what the Corps did. 
And part of that is bringing all the parties together, 
communicating and agreeing that in a crisis we're going to get 
this done. BRAC was a great example of the Congress and the 
American people all coming together and saying here's the 
priority, we're going to get it done, and the Corps can 
deliver. The challenge we have is we don't have that burning 
platform in many of these other projects.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman.
    I just--pointing out the comparison of this other delivery 
mechanism compared to what we're using right now, you're doing 
projects like that in 7 years compared to what we're taking 
decades to do. There needs to be fundamental change in the 
project development and delivery systems.
    Mr. Gibbs. That's obviously a good point, which sometimes 
we study stuff to death.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    Secretary Darcy, General Bostick, the entire country has 
been awakened by the lead in the water crisis in Flint, 
Michigan. There was something of a similar crisis here, and of 
course the Corps produces drinking water for this Capital, for 
the Federal complex, for several adjoining counties in 
Virginia. And DC Water in particular purchases almost three-
quarters of the water from the aqueduct, and of course we drink 
that water here in the Capital.
    Now does the Corps operate any other municipal drinking or 
water treatment in the country?
    General Bostick. We do not.
    Ms. Norton. Only in the Nation's Capital?
    General Bostick. Only in----
    Ms. Norton. This is a holdover from before the city had its 
own home rule and, of course, it has DC Water now. DC Water is 
an expert agency in delivering water. That is not your core 
expertise, is it?
    Ms. Darcy. No.
    Ms. Norton. No. The Secretary says no. In addition, as I 
understand it, if there are capital improvements, you are not 
funded by this Congress in order to engage in those 
improvements because you cannot borrow, you cannot bond. Isn't 
that the case?
    General Bostick. That's correct.
    Ms. Norton. Of course, DC Water can borrow and bond and is 
doing a great many things at the moment. How do you test for 
lead in the water for the water supply that comes to this 
Congress and throughout this region?
    General Bostick. How do we test in the water supply in 
Washington, DC?
    Ms. Norton. To make sure there's no lead in the water, 
General Bostick.
    General Bostick. Right. We know that there's no lead in the 
water source, which is the Potomac River. And the water leaving 
the two Washington aqueducts water treatment plant is tested 
once a month for lead. Now lead can leach into the pipes going 
from the pipes that are coming from the house or the buildings 
to where the source of the water is, but our current indication 
is that we've tested the water coming from the aqueduct----
    Ms. Norton. But if it leaches from the pipes, which is of 
course the problem here and all across the United States, and 
Members had best look and ask what is the substance put into 
the water to counteract that lead leaching, is that substance 
being routinely put into the water here today? The wrong 
substance was being put in the water by the Corps in the early 
2000s when the Nation's Capital had a similar crisis. What's 
the substance?
    General Bostick. The substance is orthophosphate, and it 
interacts with the interior surface of a lead pipe, and it 
provides a protective layer in the pipe to ensure that there's 
no lead that's going to leach. So----
    Ms. Norton. I want to alert you, Mr. Chairman, other 
Members to inquire in their own districts what is the 
substance. The Corps put the wrong substance in the water, and 
there was lead in the water. Forty-two thousand children had to 
be tested. It was a genuine crisis. We had to use bottled water 
just like they are having to do in Flint, Michigan. So Members 
are well advised to go home and at least inquire what is the 
substance, how often is the water tested.
    Let me ask you about another--you do several projects here 
as a matter of routine. I want to thank you for agreeing to 
work in the Spring Valley community here to test groundwater in 
that community while allowing the neighborhood to make use of 
one of its parks. Has that groundwater testing started? And 
what are you looking for? What do you think you may find in the 
groundwater?
    General Bostick. I'll have to follow up on the groundwater. 
I was not tracking that specific question, but we can follow up 
on it.
    Ms. Norton. Well, you went to a great deal of--you put a 
great deal of energy into building a way to test the 
groundwater, and I'd ask you within 30 days to get back to the 
chairman and me--and I'm sure he would give to me what action 
the Corps plans, about what you are doing to test this 
groundwater, which was your intention and what you intend to 
do--what you're looking for and what you intend to do about it.
    And finally, let me ask you about the levee that you were 
building. You had a problem with the contractor. Boy, I just 
saw a drawing of everything on the Mall underwater except the 
Washington Monument because of climate change. But at least in 
the near term we have this levee to protect the National Mall 
and nearby neighborhoods, but there have been lengthy delays. 
We are told that the levee system evaluation report--this is 
supposed to be the final piece of writing--is due to FEMA this 
spring and that the levee therefore will be approved.
    Lieutenant General Bostick and Secretary Darcy, is the Army 
on track to get this Federal report in, done and over with by 
this spring so that you can assure the Congress that, in fact, 
this levee to control flooding on the Mall has been taken care 
of?
    General Bostick. Yes, we'll have that report completed and 
to FEMA this spring.
    Ms. Norton. Thank you very much. And I appreciate it, Mr. 
Chairman.
    Mr. Gibbs. Welcome to our new member of the committee from 
Illinois, Mr. Bost.
    Mr. Bost. Thank you, Mr. Chairman.
    First up, I want to say a special thank you to the 
Secretary and the general. I've had the luxury of working with 
both, well, actually three intersecting areas: St. Louis, 
Louisville and also Memphis and all in one county where that 
one works there. But let me also say that your Colonel Mitchell 
is doing a fine job and has been a tremendous help to us 
working with them.
    That being said, we do have a unique situation that has 
occurred, which 6 days ago I was on the ground seeing, and that 
is when the--what was known as the Len Small levee which was a 
secondary levee system that was put in in the 1920s by then-
Governor Len Small in the State of Illinois, and it's only set 
up for a 15-foot levee. But when the holiday floods--because I 
guess that's what we'll call it--came and came so rapidly along 
the Mississippi and we traced it all the way down, that levee 
broke. And when that levee broke, we watched as it occurred and 
the concerns that we had. But we thought, no problem, we'll be 
able to go back in and fix the levee.
    Now it has elevated, and I want to make sure that you're 
aware of that. It is elevated to the point that the--because 
the river is coming right straight there, and it goes into 
what's known as the Dogtooth Bend. It's about a 17-mile bend in 
the Mississippi River that comes back upon itself. And when it 
does, the area across is 3\1/2\ miles in comparison to the 17 
miles around. The elevation drop is somewhere between 13 and 17 
feet.
    In the 3 weeks that the water was up, it has already cut a 
gouge about a half a mile long and one-quarter mile wide 
working to come across that 3\1/2\ miles.
    Now the concern I have besides the fact that I have a 
concern for the district, for the property that was ruined and 
all of the issues there, the concern I really have is for 
commerce for the United States because if that breaks through 
and we aren't aggressively going after to stop that, barge 
traffic from New Orleans to the Great Lakes could be held by 
the fact that that becomes a rapid instead of a smooth, 
navigable water. Is that your concern as well? Or do you know?
    General Bostick. I don't have the specific details on that, 
but navigation is clearly one of our three primary functions, 
so we're very concerned in anything that would involve the 
situation you described. So we will take a look at it----
    Mr. Bost. OK. I wanted to make sure that we were up on 
that. And another concern that I do have because it's in the 
same area, the--across from the Len Small area is--on the 
Missouri side the New Madrid levee project. And that project 
was approved. Does that take both of you to sign off on that?
    General Bostick. Well, there would normally be a Chief's 
Report that I sign. We send it to Secretary Darcy for approval.
    Mr. Bost. OK. Would you know where the status of that 
project is? It's about a 1,500-foot added levee on the other 
side of the river.
    Ms. Darcy. I believe--it's the St. John's-New Madrid----
    Mr. Bost. Mm-hmm.
    Ms. Darcy [continuing]. You're talking about? I believe 
it's currently undergoing an Environmental Impact Statement.
    Mr. Bost. OK. The fear that we have on the other side of 
the Mississippi is the pressures that we're already feeling and 
the fact that when the 2011 flood occurred, to keep us below 
the 60-foot level at Cairo, it was to blow, and we remember how 
difficult that was to make the decision that was part of the 
plan to release the Birds Point levee. My concern and the 
concerns of my constituents are that that would change the 
hydraulics and put more pressure on our side of the river. Do 
you see that, or what are your concerns with that?
    General Bostick. If you're talking--when we have floods in 
that area in the Cairo area, we would still blow the New 
Madrid----
    Mr. Bost. The New Madrid would still fall under the 
existing rules so that we could make sure of----
    General Bostick. Right. We would still execute the 
floodway.
    Mr. Bost. And let me say this to continue to give a 
compliment here. Let me tell you that working together it was a 
great job done by the Corps, all three of them working together 
to release water from both the Kentucky Lake and Barkley Lake 
to allow the pressure relief that actually brought the pressure 
off of Cairo without having to blow that and thinking in 
advance that way. I want to commend you on the job that you've 
done there.
    I look forward to working with you. I--on the one project 
if you can get back with my staff, we're wanting to help any 
way we can to make sure, because my big fear on that where the 
Dogtooth comes around is that spring thaw would occur, we'd get 
another secondary flood that would move in there like the one 
of the holiday flood, and it would, like I said, change what we 
know for as far as commerce in the United States. So thank you 
very much. I yield back, Mr. Chairman.
    Mr. Gibbs. Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    Let me express my appreciation to you and Ranking Member 
Napolitano for holding this hearing of the Corps annual report 
to Congress. And I'd like to thank also the Honorable Assistant 
Secretary Darcy and Lieutenant General Thomas Bostick for being 
here today.
    I do appreciate your continued commitment to working 
cooperatively with Congress to plan the development of our 
Nation's future water resources. The Water Resources Reform and 
Development Act of 2014, otherwise known as WRRDA, established 
new mechanisms for the Corps to submit projects for possible 
authorization by Congress. Section 7001 of WRRDA 2014 is meant 
to guide Congress as it drafts a new water resources bill.
    I have in practice I believe many questions that remain of 
how both Congress and the Corps will implement the requirements 
under that section.
    Assistant Secretary Darcy, can you speak more to the 
challenges that the Corps continues to face with the 
interpretation and implementation of 7001, what Congress can do 
to improve that process for future resources, water resources 
legislation?
    Ms. Darcy. Congresswoman, I think we learned a lot from the 
2015 report to the 2016 report, and we've done some outreach to 
local sponsors to be able to educate them as to what the 
requirements are and the criteria that is in 7001. We have made 
the submission of the proposals easier by putting it online for 
Web-based distribution throughout the Corps. And we also have 
all of our districts involved now on the local level and 
helping local sponsors develop their proposals for 7001. We're 
hoping that this year's report will meet with more of the 
congressional intent that there was in 7001.
    Ms. Johnson. OK. During consideration of that bill, I 
worked very closely with my colleague, Congressman Farenthold 
to draft language directing the Corps to conduct an assessment 
of the Atlantic and Gulf Intracoastal Waterways within 90 days 
of the bill's enactment. While the language was adopted and 
included in the bill, that assessment has not yet been 
completed, and we don't have the response. So it's kind of 
frustrating when you're trying to plan and look for studies 
that have time limits that don't come.
    Ms. Darcy. I'm not sure what the status is of that report. 
I know that there currently hasn't been any funding allocated 
to start that report.
    Ms. Johnson. No funding allocated? So the funding has to be 
specifically allocated for every individual thing?
    Ms. Darcy. Yes.
    Ms. Johnson. So when we draft a bill and have instructions 
and don't have a line item to pay for it, it will not be done?
    Ms. Darcy. All of the studies that are authorized all 
compete for funding within the President's budget every year.
    Ms. Johnson. What is your process for alerting the Congress 
that they're going to be ignored if the money is not there?
    Ms. Darcy. When we submit the President's budget. In each 
of our accounts, our investigations account is the one that 
would fund studies; it would be at that point that Members 
would know whether the study is being funded or not.
    Ms. Johnson. But there's no response to Congress when you 
get a mandate--congressionally mandated to do something and you 
don't do it, and you say the reason is not money, there's no 
way to get back to Congress and say it's not going to be done?
    Ms. Darcy. We don't have a notification process for that 
currently. Perhaps we need to be more responsive to the 
requests and let Members know what is not being funded.
    Ms. Johnson. What do you suggest that we do congressionally 
to get responses to what is congressionally mandated that's not 
done in the specific time that it's requested? And it's not 
just a mouth-to-mouth; it is mandated in law and you can't do 
it, what process do you use to notify the Congress that you're 
not going to do it?
    Ms. Darcy. As I said, we currently don't have a process in 
place for that kind of notification, but it's probably 
something we need to look at, and maybe we can work with the 
committee on trying to be able to afford at least the 
notification to the Members.
    Ms. Johnson. So you recommend we also congressionally put 
that in, to instruct you to give us a report on what you're not 
going to do and what you're going to do based on what's--what 
money is allocated?
    General Bostick. Ma'am, if I could offer, this kind of gets 
back to the point I was raising earlier. You know, when you 
look at BRAC or you look at what we did after Hurricane Sandy 
and after Hurricane Katrina, we had a lot of upfront funding. 
We knew what it was going to cost, and we were provided the 
money that was required and we worked with the other agencies 
and we got the work done in a rapid pace. Currently we have a 
lot more work that needs to be done than we have funding. So 
part of where we need help is in the priorities of what we want 
to get accomplished. So what we try to do is look at the 
benefits in each of these projects and then prioritize.
    But that's why the hurricane protection system in New 
Orleans took 40 years to build before Katrina hit, and then we 
finished it in 7 years. All of these projects are out there. We 
need help with priorities. Priorities like BRAC where the 
Congress said you will start in 2005, you will be done in 2011, 
and we were funded for it and we did it. Right now we have a 
lot of projects that the Members want done and limited funds to 
do that, and we're not ignoring the Congress. We're trying to 
do the best job that we can with the dollars that we have.
    Mr. Gibbs. Thank you, General.
    Mr. Rouzer.
    Mr. Rouzer. Thank you, Mr. Chairman.
    And Madam Secretary, General Bostick, thank you so much for 
being here today. You don't have an easy job, and I appreciate 
that and certainly appreciate you indulging all of us here.
    Two major items that are on my mind: Wrightsville Beach and 
Carolina Beach. As you all know, Wrightsville Beach is 
approaching its funding limit, and I was just curious if you 
have an idea of when the Post-Authorization Change Report for 
our Wrightsville Beach project will be complete.
    General Bostick. I do not. But we can follow up and we'll 
get that answer to you quickly.
    Mr. Rouzer. I'd--just a question of curiosity: Are there a 
number of Post-Authorization Change Reports that you're working 
on? Is it a significant number? Just a few?
    General Bostick. My sensing is it's a smaller number. We've 
put processes into place where we're able to mitigate and 
control the price increase as much as possible. When I was 
first Chief, it was a very large number. I can get you the 
number where it's at today, but my sense is it's much less than 
it was before.
    Mr. Rouzer. I was just trying to figure out why it's taking 
so long. That's why I was wondering the number.
    General Bostick. Each one of these have different issues, 
and it's very difficult to say why this particular one is 
taking long, but I will find out, and we'll get the details and 
provide it to you.
    Mr. Rouzer. I appreciate that very much. Carolina Beach, as 
you know, they concluded their 50-year cycle a couple years 
ago, received a 3-year extension in the last WRRDA bill, the 
2014 WRRDA bill. They were included in the appendix, but not in 
the report. And I'm still not completely certain I fully 
understand the criteria for making the full report versus being 
inserted in the appendix if you can help me out there a little 
bit.
    Ms. Darcy. Carolina Beach is the one you're asking about? 
Carolina Beach is already an authorized project. In order to 
get into the report, you would need to be a project that needs 
authorization, and Carolina Beach does not.
    Mr. Rouzer. OK. Thank you for that clarification.
    Thank you, Mr. Chairman.
    Mr. Gibbs. Mr. Davis.
    Mr. Davis. Thank you, Mr. Chairman.
    Secretary Darcy, General Bostick, thanks again. Great to 
see both of you again. As you both know, I worked to include an 
important provision in WRRDA 2014 that created a water 
infrastructure P3 [public-private partnership] program. The 
goal of this P3 pilot is to identify project delivery 
alternatives to save costs and reduce the current backlog of 
authorized Corps projects.
    In the Corps FY 2016 workplan that was recently released, I 
was pleased to see that the Fargo-Moorhead flood control 
project was listed as a new start. In its recent report to 
Congress on P3s, the Corps noted the Fargo-Moorhead project 
sponsors had developed a split delivery approach that will 
expedite project delivery with the local sponsors using a P3 
structure to construct the diversion channel and the Corps 
constructing the dam. In that same report, the Corps listed the 
Illinois waterway navigation proposal second in a list of six 
projects being evaluated as a P3 demonstration project.
    General Bostick, can you reaffirm that the Illinois 
waterway navigation proposal remains a viable project for the 
P3 pilot program?
    General Bostick. It is a viable project that we're looking 
at.
    Mr. Davis. In reference to the Illinois project in its 
report to Congress on the state of P3s, the Corps mentioned the 
progress needed to develop revenue generation authority in the 
Federal ownership and operations. Beyond needing another new 
start, can you elaborate on what more the Corps needs for this 
project to move forward?
    General Bostick. When we looked at the different projects 
that were out there, Fargo-Moorhead was the furthest along in 
terms of investors and the tax base that they were going to use 
in order to fund it and the local community coming onboard and 
agreeing to it. I'm not saying that Illinois is not there and 
others are not there, but they were not as close.
    I don't have the specifics on this project that we're 
talking about now, but I can get those and find out what other 
factors are needed. I think what we had to do this first time 
was to almost pilot one for lack of a better term. We had to 
push one of these P3s out and ensure that we have the right 
mechanisms within OMB, within Congress and with the Corps to 
understand it. And then I think we can cycle back and see where 
Illinois River and the others stand.
    Mr. Davis. OK. And if we're successful in requesting 
another new start in this year's approach process, do you think 
the Illinois project has a chance to be included in the FY 2017 
workplan?
    General Bostick. I really couldn't answer that today.
    Mr. Davis. Yeah, you can. [Laughter.] You can say yes.
    General Bostick. I can say that we will certainly take a 
look at it. You weren't here for my opening I don't think, but 
I did talk about the importance of public-private partnerships 
and that it's part of the solution----
    Mr. Davis. Just say yes.
    General Bostick [continuing]. In my view going forward.
    Mr. Davis. Just say yes.
    General Bostick. We will do everything we can.
    Mr. Davis. Just say yes. [Laughter.]
    Secretary Darcy, I wanted to ask you about some recent 
actions taken by the Chicago Corps district that have been 
brought to my attention with specific regard to the Brandon 
Road lock and dam. Chicago district recently sent out a small 
survey to carriers and shippers with questions about lock usage 
in order to identify the impacts of a new lock at Brandon Road. 
Are you aware of the survey that I'm talking about?
    Ms. Darcy. I am not, but----
    Mr. Davis. There you go.
    Ms. Darcy [continuing]. He's going to give it to me.
    Mr. Davis. We'll take it down. [Passing witness a survey.] 
We'll give that one to you. I say small survey because I 
understand that only a total of nine were sent out, and with 
unanimous consent I'd like to actually enter it into the 
record, Mr. Chairman.
    Mr. Gibbs. So ordered.
    Mr. Davis. Thank you. What's concerning to me is that the 
survey sample did not include those folks who would be directly 
impacted by any changes in operations at Brandon Road such as 
towboat companies, major shippers and businesses with indirect 
ties to the lock like port shipyards and construction 
companies.
    In addition, I'm told that the survey included several 
companies that do not even do business near Brandon Road and 
that two surveys were actually sent to the same company under 
two different names. And as you know, Secretary Darcy, Brandon 
Road is a vital commercial lake between the Mississippi River 
system in my district borders and the great lakes. And I'm sure 
you'll well understand any changes to the structure operation 
at Brandon Road could have a significant impact on the inland 
maritime industry and my constituents.
    So first, can you explain for the committee the methodology 
the Chicago district used to determine the entities that this 
survey was sent to?
    Ms. Darcy. I cannot. I don't know if the general----
    Mr. Davis. General Bostick?
    General Bostick. My understanding is they contracted with 
the University of Tennessee's Center for Transportation 
Research. And their effort and guidance was to go out and get a 
shipper response survey from shippers, those on the docks and 
carriers. So the interviews included shippers and vessel 
operators, and there were 132 total responses that were 
involved in the survey.
    Mr. Davis. How many?
    General Bostick. 132.
    Mr. Davis. OK. My records show that only nine were sent 
out. That's not the case?
    General Bostick. That's not my understanding. But since 
there's a misunderstanding here, I will follow up and find the 
details and get back to you.
    Mr. Davis. OK. You could do that and say yes on the 
Illinois waterway question, too. [Laughter.] My understanding 
is that only nine were sent out to address some OMB issues and 
also that it was necessary to expedite this process. I'm just 
concerned that the industry was not consulted prior to the 
Corps utilizing this contractor to conduct this survey, and I 
just want to make sure that both of you could commit to me 
today to work to get answers to these questions, clear up any 
miscommunications that I may be getting and then also work to 
ensure that a better sample of stakeholders that utilize the 
Brandon Road facility are included in any attempts to address a 
survey relating to that specific project.
    General Bostick. We will do that.
    Mr. Davis. And you could still say yes. I've got time.
    Mr. Gibbs. Thank you, Mr. Davis.
    Mr. Davis. I yield back.
    Mr. Gibbs. Mr. Sanford.
    Mr. Sanford. Two quick thoughts. One, I think it's 
appropriate to praise the administration when they get it right 
and condemn them when I think they got it wrong. And I just 
want to say thank you for what you all have done with regard to 
the port in Charleston. If you look at the port in Charleston, 
it really is a national resource given the number of container 
ships that go in and out of that facility. If you look at post-
Panamax and what's going to happen with the widening of the 
Panama Canal, I think its impact will be profound. And it's 
going to have a mighty impact on the Southeast as you serve the 
heartland of America from a different access point.
    You know, it has basically $50 billion of economic activity 
not just in our State but across the region, more than 200,000 
jobs, direct jobs tied to the port. So it's a significant 
facility, and if you look at the process that the Corps has 
gone through, originally it was estimated I think it would take 
7 years and $20 million to go through this next leg that we're 
in right now.
    In essence both of those numbers have been cut in half. 
Roughly 4 years and $11 million. You guys have worked in I 
think awfully cooperative ways with State and other Federal 
agencies in some ways that maybe weren't done in the past. So I 
want to say thank you for what you've done on that front. I 
think it was well done.
    And as you look at the process going forward, I guess my 
question would be this: Are the lessons learned that came out 
of what's happened in Charleston that you might apply it with 
other port facilities or harbor facilities around the country 
in terms of the expediting, the tax savings and the cooperation 
that we've seen thus far in Charleston?
    Ms. Darcy. Congressman, I think we're looking to what we've 
done in preparing the Charleston study report to help with 
other reports that we'll be doing. As you know, this particular 
project had a great deal of attention on it; it was on the 
President's ``We Can't Wait'' initiative which helped us in 
many ways to get a focus on what was required and trying to get 
it, again, completed earlier than the traditional way of doing 
things. I think we can take those lessons learned to other port 
deepening projects.
    General Bostick. One of the lessons as I'm sure you know, 
was that we had to work very closely with NOAA [National 
Oceanic and Atmospheric Administration] and look at the 
priorities they had and the priorities we had and how could we 
move Charleston up. And this gets back to the point I made 
earlier, the 3x3x3 really applies to the Corps of Engineers in 
law, but not necessarily other organizations that have their 
own very important priorities.
    So one of the things we've set up is regular meetings. I've 
met with Vice Admiral Brown at NOAA, and we're looking at these 
priorities in certain areas. I think Charleston was another one 
of those that was a good example of how we could work together 
to see what was the Nation's----
    Mr. Sanford. Is there anything that stakeholders tied to 
the facility in Charleston ought to know or be aware of moving 
forward, any next steps that deserve further elaboration or 
color?
    Ms. Darcy. We're on track with the Chief's Report for 
Charleston Harbor. We also put money in the 2016 budget for 
Preconstruction Engineering and Design for this project. I 
think the Port of Charleston did a pretty good job in getting 
this one over the finish line.
    General Bostick. Yesterday I spoke to our planners, and 
these are young folks on who we have invested a lot of money so 
that they can help us with planning modernization. And part of 
what they're doing is looking at our centers of expertise, and 
one is the world-class deep draft planning expertise, and that 
was key in Charleston moving forward. So we've developed great 
expertise in the Corps and we're looking 10, 20 years down the 
road at how we continue to train our people.
    Mr. Sanford. Last question in the minute I've got. And this 
is tied to the annual Harbor Maintenance Trust Fund. For a 
while it seemed the administration was underfunding. Then 
Congress came back, I guess, in WRRDA 2014, said we need 
basically a description of future costs so that we're not 
caught unaware or behind and that there was to be a report 
issued I think each year as a consequence of WRRDA 2014. Was 
that in your 2017 request, report back to Congress on that 
front? Could you, again, fill me in on where we are on that?
    Ms. Darcy. On the Harbor Maintenance Trust Fund?
    Mr. Sanford. Yeah.
    Ms. Darcy. I'm not aware of our report to Congress, but I 
will double-check and see what the requirement is and what the 
status is of that report for the Harbor Maintenance Trust Fund, 
not the Inland Waterways Trust Fund, right?
    Mr. Sanford. Right. Right. I think it's dictated by WRRDA 
2014 if I'm not mistaken. I'm just curious to see where that 
stands. If you'd come back to me, I'd appreciate it.
    Mr. Gibbs. Mr. Babin.
    Dr. Babin. Yes, sir. Thank you, Mr. Chairman.
    I have a couple of questions here. Last year I asked about 
what the Corps was doing to address the Bayport Flare which is 
a navigation issue in my district on the Houston Ship Channel. 
And I understand that a design efficiency report is nearing 
completion by the Corps, and I'd like to know what the 
timeframe is for completing the report and who currently has 
authority to approve this report. And also once it is 
finalized, will there be any other requirements or actions 
required by Congress to enable the Corps to budget for and 
maintain the report's recommendations, and if there's any 
further action required by Congress and when will we receive 
the information for our consideration? And I guess I would 
direct this to General Bostick.
    General Bostick. We regret that this has been delayed for a 
number of times, and we appreciate you bringing it up. I have 
visited the port and talked to the leaders there, and our team 
has worked very closely with them. We expect that the report 
will be in the headquarters by March of this year and that we 
should have approval of the project deficiency report by May. 
We will still need approval of the Post-Authorization Change 
Report, which is an increase in cost, and we will ultimately 
need funding in order to move forward.
    Dr. Babin. Well, it's a safety issue in our minds. Also, I 
would like to ask--it's my understanding that there have been a 
number of delays in completing the 902 report for the Houston 
Ship Channel project and how the delay might impact the ability 
to address this Bayport Flare problem if modifications need to 
be made by Congress and specifically I'm concerned that until 
the 902 report is completed, the project authorization is 
modified, there could be limitations on construction of 
critical elements of the project, which could affect the 
viability of the entire Houston Ship Channel, the entire 
navigation system.
    And I would like for your to please explain the purpose for 
the ongoing 902 report, the schedule for completion of the 902 
report and the impacts to the project if the 902 limit is not 
resolved in the upcoming WRDA bill. And simply put, would more 
flexibility under 902 help you to address these critical safety 
issues that we're concerned with?
    General Bostick. The 902 report is also on a timeline that 
we expect it to be submitted in March of 2016. I think we can 
do more work to be efficient in how we get it processed, and 
we're trying to do that. But that report will be here in March, 
and by the end of April, if there are no comments, we believe 
that we can start the process of moving that to Congress.
    Dr. Babin. We certainly hope so. We had a collision in our 
channel last year. I can't blame it on the Bayport Flares, but 
it certainly could have involved something in that regard so 
that this really and truly is a possible safety issue. And we 
hope that this will be taken care of pretty quickly. So March 
or April is when we can expect it then, huh?
    General Bostick. March or April we should be finished with 
it at the headquarters. And assuming there aren't any 
significant issues or comments, then we will start the process 
of moving it to Congress.
    Dr. Babin. OK. Thank you, General. I yield back the balance 
of my time, Mr. Chairman.
    Mr. Gibbs. General, I just want a little bit of 
clarification on that. The 902 on this--that's for 
construction. This is operation maintenance. So it shouldn't 
really be in that 902 issue, is that correct?
    General Bostick. No, it is construction.
    Mr. Gibbs. OK, well, we think you already have the 
authority to do all this already, without having to do a 902. 
That's an opinion of mine.
    General Bostick. OK. Then we'll clarify it with our 
attorney.
    Mr. Gibbs. OK.
    Dr. Babin. We thought so too, Mr. Chairman, at first. And 
then this is the conflicting story that we're getting. So we 
hope that this gets----
    Mr. Gibbs. Yeah. On code 33, U.S. Code 562 you might want 
to look at, I guess. Mr. Rokita?
    Mr. Rokita. Thank you, Chairman, for holding this hearing. 
I appreciate the witnesses being back before us. My apologies 
for not hearing your testimony. Frankly I was in another, 
another hearing. Not as bad as being a Senator I guess, but we 
still get conflicted a lot of times. So apologies if you have 
to restate some of this, General. But let me start here. 
Representing the--and of course, the inland waterways are very 
important to us and very important to the Nation, as you know. 
We feed the world through the inland waterways in my opinion. 
And if any of these locks or dams go down, not only people's 
livelihoods, but really their safety and well-being is 
affected. So I'm looking at, you know, through the 
appropriations process and through my other committee budget 
looking through fiscal year 2016 appropriations, I see that we 
approved $405 million for construction of projects on the 
system. With this appropriation, the Corps announced the funds 
would go to construct four lock projects, Olmsted, Lower Mon 
[Monongahela] 2, 3, and 4, Kentucky lock and Chickamauga lock. 
However, in the fiscal year 2017 budget request, $206 million 
in funds are requested only for the Olmsted project, if I'm 
reading that right.
    So my question is this: Are you planning on doing work on 
those locks with the fiscal year 2016 money? And then you're 
not going to lay off the workers when you get to fiscal year 
2017. So what--or are you? Or if so, what happens to the 
projects? I'm not understanding how the projects continue with 
the differential of funding.
    Ms. Darcy. The 2016 workplan, you're correct, had the four 
projects funded in that. And then in 2017 we are only funding 
Olmsted.
    Mr. Rokita. Yeah.
    Ms. Darcy. Because of the trust fund balances. But the work 
will not completely halt on the other projects. They just will 
not be funded in 2017 because they are, they don't compete for 
the funding that we have available for the inland waterways.
    Mr. Rokita. They don't compete why? Because it's not needed 
in your opinion? It's not----
    Ms. Darcy. No, sir. The benefit to cost ratio of those 
projects does not compete within the budgeting process. We 
usually look to a benefit to cost ratio of 2.5 to 1 in order to 
budget projects. And those projects do not meet that criteria.
    Mr. Rokita. The 2.5 to 1 what? I'm sorry?
    Ms. Darcy. Benefit to cost ratio.
    Mr. Rokita. OK.
    Ms. Darcy. That's how we prioritize projects in the budget. 
The benefit to cost ratio is 2.5 to 1 at a 7-percent discount 
rate.
    Mr. Rokita. What happens to the condition of the locks? I 
mean, the benefit to cost ratio doesn't--those, these locks 
don't pass that except for one. Is the work done at that point? 
Does it just get put on hold? Does it languish? How hard is it 
to start up a project after it's put on hold? I'm, I just need 
some clarification.
    Ms. Darcy. You want to take that one?
    General Bostick. We wouldn't just walk away from the 
project, but we would do minimal work. And at some point if 
funding was not available, we obviously would have to 
demobilize the contractors. And then, we would not be managing 
the project. We would have a project that is unfinished. And 
this gets back to an earlier conversation I had before you came 
in here. There are projects that we have completed very rapidly 
in short periods of time with upfront funding. And we have 
great examples of how we can do that. In these examples money 
is stretched over a long period of time. And therefore their 
benefits drop. And therefore they are no longer competitive. 
And that's where we are in some of these projects. Because of 
our model on how we are able to calculate, and the lack of 
efficient funding, many of these projects either take a long 
time to complete or are not completed at all.
    Mr. Rokita. OK. So I'm again, I'm illustrating a 
longstanding problem, funding over multiple fiscal years. And 
in your opinion has Congress been helpful or hurtful on the way 
in trying to solve that problem?
    General Bostick. I gave examples of where we're successful. 
BRAC, baseline realignment and closure. I mean the Congress, it 
was an up or down vote. I'm from California. We didn't want to 
see Fort Ord close, but it closed. There was a decision that 
``Here are the priorities. Here's the basis. Here's the money. 
You have 7 years to accomplish the mission.'' And the Corps was 
able to do it. No other organization in the world could have 
done that. So, and the hurricane storm damage risk reduction 
project after Katrina. No other country in the world could have 
done what the Corps did and what the Nation did, because we 
came together within the interagencies. I do think we need 
upfront funding. We need priorities. And then we need the 
interagencies to work together as if we have a crisis and say 
we're going to accomplish these missions.
    When I came back from China, the Minister of China Water 
Resources said, ``We're learning from the United States. We're 
about 100 years behind you but we want to catch up.'' So our 
plan is, we're going to do 172 projects with $600 billion and 
we're going to finish it in 7 years. And he looked at me and 
said, ``What's your strategic plan?'' And I could not repeat 
our strategic plan, because we don't have one in that context. 
We have a collection of projects that are supporting many, many 
districts in many, many States. And we're trying to do the best 
that we can to manage those projects in a strategic manner. But 
in this form of decisionmaking, these projects take a long 
time. Their BCR [benefit to cost ratio] drops and then they get 
very difficult to fund.
    Mr. Rokita. Thank you. And Mr. Chairman, with your 
indulgence, I know I'm over, but one quick followup. It could 
be answered in 5 or 10 seconds. The formula you speak of, Ms. 
Darcy, was that congressionally driven, or was that, is that 
something that the agency or others wholly came up with? The 
cost-benefit formula process that these locks have flunked now, 
who derived that?
    Ms. Darcy. The administration does that in the evaluation 
of the funding.
    Mr. Rokita. At our insistence, or just the way this 
administration decided to prioritize things?
    Ms. Darcy. Well, it's been since the 1980s that----
    Mr. Rokita. Yeah, that's what I'm asking. I'm new to this 
subcommittee so I'm again, trying to learn as best I can. Thank 
you, Chairman.
    Mr. Gibbs. Oh, she left. I guess it goes to me. I was going 
back to your side, but Ms. Frankel left. OK. General Bostick--
and Secretary, this might be kind of both of you. But in 
General Bostick's testimony you talk about national security 
being a top priority. Which, I'm glad to hear that. But to 
follow up on that kind of a question, I want to first thank 
both of you for fixing the flawed economic analysis on the Soo 
lock project, because I had some thoughts on that. So where are 
we? Because I believe that I would say the Soo lock project, 
there is a national security issue. And so describe your plan 
in the budget to maintain the 48-year-old Poe lock and the 73-
year-old MacArthur lock. What's the status of the work on the 
Soo locks?
    Ms. Darcy. I think that we're currently re-looking at the 
economics for this, for the new Soo lock.
    Mr. Gibbs. What was that?
    Ms. Darcy. I think we're, updating an economic analysis for 
the new Soo lock.
    Mr. Gibbs. You know, this should take 5 minutes, to do an 
economic analysis on the Soo locks, I would think. So what's 
your timetable for that?
    Ms. Darcy. I don't know, but I'll get back to you soon.
    Mr. Gibbs. I mean, how much figuring does it take to figure 
out that the Soo locks, if they go down, that's a huge economic 
impact? Because you can't get into Lake Superior and the other 
Great Lakes. I mean, I think during World War II, we had a 
garrison guarding that up there, because it was so important. 
So you know, I guess I just don't really want to hear too much 
of ``The economic analysis is going to take this long and this 
long.'' It just doesn't make sense to me. I mean, I think we 
could sit down here in 5 minutes and get that done. But it's 
just my opinion. I'm probably getting in trouble here, but 
that's my opinion. And General Bostick, you mentioned the 
national security. I think that's one area. And I've said this 
to your leadership. You know, it'd be nice if the Corps would 
identify these issues. And you're just talking about a 
strategic plan. And I think I said this to General Jackson when 
he was in my office. You know, the Soo locks I would think 
ought to be a national priority. The flood wall down in 
Houston-Galveston ought to be a national priority because we've 
had hurricanes hit there. The whole Eastern United States runs 
out of gasoline. And so if you want to develop a strategic 
plan, that would be my suggestion.
    I want to talk a little bit about the annual report, 
Secretary Darcy, didn't contain some, some project 
modifications that have been routinely included in WRDA in the 
past. So these would include proposals for modification to the 
Houston-Galveston Channel project. To include a nonfederally 
constructed channel of segments, or Federal maintenance 
modification of the Texas City Channel deepening project. To 
remove impediments under navigation to enable use of certain 
property adjacent to the project for development of a container 
terminal, and the modification of the Cleveland Harbor project 
to provide for Federal participation of the upland placement of 
maintenance, such material or such material as deemed not 
suitable for Oakland Lake placement by the State of Ohio. The 
report indicates the proposals were excluded from the report's 
main table on this basis: they do not meet the purpose of the 
annual report to identify projects for authorization, or 
modification to existing projects.
    This is puzzling to me since the proposals clearly meet 
that criteria of project modifications related to the Corps of 
Engineers navigation mission, requiring congressional 
authorization as capable of being carried out by the Corps of 
Engineers. First, why exactly were they not included in the 
annual report for congressional consideration for WRDA? And 
second, your own report states that the act directs the 
Secretary to include, among other things, proposed 
modifications to authorized projects that meet the criteria. So 
I would like your explanation to the subcommittee. Where in the 
law is the Corps of Engineers asked to judge submitted 
proposals beyond determining if such project modifications meet 
the standard criteria?
    Ms. Darcy. As you've outlined, the project you've listed, 
we don't believe met those criteria. In particular, I know of 
your interest in Cleveland Harbor. And in the instance of 
Cleveland Harbor, the modification that was asked for is one 
that is, that in order to be in the report it would need 
congressional authorization. The modification that was asked 
for would be a modification to the Federal Standard. And the 
modification to a Federal Standard would have to be a 
rulemaking, not a legislative action.
    Mr. Gibbs. Well, OK. So which one of the five criteria 
didn't it meet?
    Ms. Darcy. It doesn't need to be authorized.
    Mr. Gibbs. It doesn't need the authorization?
    Ms. Darcy. Right. Because as you know, Cleveland Harbor is 
already an authorized project for the Army Corps of Engineers. 
What was asked for was that there be a change to the Federal 
Standard for the Port of Cleveland. And a change to the Federal 
Standard for the Port of Cleveland does not require 
authorization or legislation. That's, so that's why it wasn't 
in the report.
    Mr. Gibbs. Are you willing to work with the Port of 
Cleveland to come up with a proposal for the next report to, 
you know, to resolve this issue?
    Ms. Darcy. Well, I think that the criteria in 7001 would 
need to be changed in order for this kind of project to be 
included in the report.
    Mr. Gibbs. So that means you're not going to work with the 
Port?
    Ms. Darcy. No, we--with the port or the committee? We work 
with both. But you know, at this junction, the requirement for 
7001, the modification is not a modification that meets the 
criteria. Because the criteria said it needs an authorization. 
What was asked for was a change in the Federal Standard. A 
change in the Federal Standard doesn't need authorization. In 
order to change the Federal Standard, we would need to do a 
rulemaking----
    Mr. Gibbs. I might want to really ask in a different way.
    Ms. Darcy. Sorry?
    Mr. Gibbs. I might want to ask in a different way.
    Ms. Darcy. You mean ask for the--the question to change?
    Mr. Gibbs. Well, the report. Because if it's asked in a 
different way, it might not be a modification that would 
require that.
    Ms. Darcy. That's possible.
    Mr. Gibbs. So, OK. Let's see here. Ms. Frankel I'll go back 
to you.
    Ms. Frankel. OK.
    Mr. Gibbs. Then we'll come back.
    Ms. Frankel. OK.
    Mr. Gibbs. Go ahead.
    Ms. Frankel. Ready, OK. Thank you so much. I want to again 
thank you all for your service. I want to just go back to 
Everglades restoration, which you know is so important to 
Florida. And I want to thank you for your commitment to its 
restoration. And thank you for the Chief's Report for the 
Central Everglades planning project. And I appreciate it's in 
the report today. Question about the budget. The FY 2016 
workplan added $7 million to Everglades program operation and 
maintenance. And then the, but the FY 2017 budget drastically 
reduces the Everglades operation and maintenance funds, to 
almost $300,000. Could you explain that?
    Ms. Darcy. What's included in the workplan, the additional 
$7 million for operation and maintenance is money that we 
believe is our Federal share. As you know, O&M for the 
Everglades is unique in that it's a 50-50 cost share for 
operation and maintenance between the Federal Government, 
through the Corps of Engineers, and the South Florida Water 
Management District. And the additional $7 million will go to 
our share of that operation and maintenance. That is, that the 
local sponsor had paid in the past, which some have viewed as a 
sort of a reimbursement. I want to stress the fact that we 
recognize that in both 1996 and in 2000 we made a commitment to 
fund the operation and maintenance at a 50-50 cost share, 
regardless of whether it is considered a reimbursement. And 
that's what we will continue to do.
    Ms. Frankel. Because is $300,000 sufficient?
    Ms. Darcy. For 2017, yes.
    Ms. Frankel. It is? OK. Next question. As you know, getting 
a--did you want to add something to that?
    Ms. Darcy. A clarification. You look at the additional $7 
million and then you look at $300,000.
    Ms. Frankel. Yeah, right.
    Ms. Darcy. Because we were able to fund it at an additional 
$7 million in the FY 2016 workplan, which states that it 
includes funds for some costs that may not be incurred until FY 
2017, all we would need beyond that in 2017 is $300,000.
    Ms. Frankel. OK. That's what you're saying. As you know, 
getting the Chief's support has been arduous in some instances, 
but who's counting the years, right? And we're grateful when we 
get one. Included in the Chief's Report, the Corps does an 
economic benefit-cost analysis. And it has to be successful in 
order to get your Chief's Report. Question. Why--it seems 
though that the Office of Management and Budget does a complete 
different analysis which could actually prevent a project that 
is authorized by the Congress from making it into the 
President's budget. Why is that?
    Ms. Darcy. When projects are authorized, when there is a 
Chief's Report and the Congress authorizes a project, the 
economic analysis that is done on that calculates a benefit to 
cost ratio. And that benefit to cost ratio is based on a 3.125 
discount rate. When the Office of Management and Budget 
evaluates projects for funding, including in the President's 
budget, that benefit to cost ratio is evaluated at a 7-percent 
discount rate. So the budgeting discount rate is different from 
the authorization discount rate that's used.
    Ms. Frankel. But why is that? I mean, why, why go through 
all--I mean, you go through so much work to evaluate these 
projects, and then it seems like it was for naught. I don't 
understand, why don't they use the same analysis?
    Ms. Darcy. Well, the analysis that we use is based in 
statute. We are required to, when we do our evaluations for 
authorization, use the current discount rate, which right now 
is 3.125.
    Ms. Frankel. OK. Well, that may be something that we need 
to take a look at. And I think I have--I'm going to just get 
back to one of the questions I asked before that I had to cut 
short, which had to do with the questions from the American 
Shore and Beach Preservation Association in terms of Coastal 
Protection and Beach Restoration. Is it possible for you to 
produce a list of 10-year priorities or 10-year capabilities 
for all the authorized coastal projects across the country? Is 
that something that would, could be done?
    Ms. Darcy. Do you mean prioritized in terms of the need for 
funding to meet the----
    Ms. Frankel. Do you have a huge list, what the priorities 
are?
    Ms. Darcy. We do when we look for budgeting from year to 
year, so I'm assuming that we probably do.
    Ms. Frankel. OK. Maybe if we could get that.
    Ms. Darcy. OK.
    Ms. Frankel. And I want to also just reemphasize the 
request for a greater stakeholder involvement in deciding which 
projects to fund. And I thank you. And thank you, Mr. Chair.
    Ms. Darcy. An aside. I spoke to that organization yesterday 
and that's one of the concerns they raised.
    Ms. Frankel. OK. Thank you very much.
    Ms. Gibbs. Mr. Graves?
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. General, 
could you give us an update on the status of dredging and draft 
restrictions on the Lower Mississippi River?
    General Bostick. Yes, I can. This has been a significant 
issue for the people in the Lower Mississippi Valley. And our 
leadership has been focused on it on a daily basis. The current 
situation is, we have exhausted or used all of the dredges that 
we have available internally and all of the dredges that are 
available in the industry. So currently we have the McFarland, 
the Newport, the Lindholm, the Terrapin and the Morgan. These, 
these are all ongoing dredges that are doing work in that 
particular area. And we've had to make tough decisions to bring 
dredges from other parts of the country. But currently we're 
doing the best that we can to manage it.
    Mr. Graves of Louisiana. General, I first want to commend 
you for all the mobilization that's happening right now. I know 
that in Southwest Pass, you do have four or five dredges that 
are all working down there trying to restore channel depth. I 
don't have statistics to verify this. But it just seems to me 
based on recollection that over the last several years we've 
seen more draft restrictions put on the Mississippi River than 
at other periods of time. And again, I don't know if that's 
accurate or not, but it seems to be an uptick. In the 
President's 2010 State of the Union Address, he talked about 
his objective to double exports by 2015, last year. And that 
goal wasn't anywhere close to being hit. There was not a 
comparable investment in dredging of the Mississippi River to 
maintain channel depths. And if my recollection is correct that 
we've seen more draft restrictions on the Mississippi, what we 
refer to as America's Commerce Superhighway, one of the most 
important navigation channels in the country--isn't there a 
connection there between increased investment in maintaining 
stability and predictability on that navigation channel and our 
ability to double exports?
    General Bostick. Absolutely. And we talk about this all the 
time. I think we're very fortunate to live in the country where 
we do, with two coasts and the Mississippi River and all that 
it brings. It's connected to the richest farmland. We've got 
12,000 miles of inland waterways, more than the rest of the 
world combined. So our ability to stay economically viable 
depends on the dredging.
    Mr. Graves of Louisiana. And the Corps is, obviously, as I 
see your burn rates, you are going to run out of your FY 16 
money well before the end of the year. Could you talk just 
briefly about efforts to ensure the future of the channel, as 
we hit the traditional high-water period for and low-water 
period for the remainder of the year?
    General Bostick. It's a daily management effort. We've got 
folks at the national, the regional and local level. We work as 
teams and we share our resources. And we prioritize the effort. 
And Southwest Pass is the main effort right now. And that's why 
we had to take resources from other locations.
    Mr. Graves of Louisiana. General, I know you're aware of 
the Harbor Maintenance Trust Fund and the, and the situation 
there where in effect users are charged a tax under the 
auspices of using it to dredge. Do you have any concerns about 
the--I guess I'll use the term ``truth in budgeting'' perhaps 
and the fact that that tax is charged to users, yet is actually 
diverted for other areas of Government while we struggle to 
maintain the authorized depth of navigation channels? And of 
course in Louisiana, something you and I have discussed 
extensively is, is this diminishing Federal Standard and 
beneficial use issue, whereby we have the greatest rate of 
wetlands loss, coastal wetland loss, in the continental United 
States, yet this material is often being dumped into the 
disposal areas in the deep water of the gulf rather than being 
used for ecological benefits and restoring the coast. So again, 
you dedicate the harbor maintenance tax, you do something, you 
lockbox it effectively. You have more money for dredging. 
You're able to expand the Federal Standards. You're able to 
truly do restoration work, as opposed to wasting this important 
racehorse. There's a question in there somewhere.
    General Bostick. This year we have more money from the 
Harbor Maintenance Trust Fund than we've ever had. And we've 
talked about could we use more? I mean, that's really the 
Government's decision as it balances priorities. I can't really 
talk to where that money is going and who it's being used for, 
and whether that's more important than the work that we're 
doing on inland waterways. I can just say the inland waterways 
are important. We're dredging the best that we can with the 
dollars that we have. And those are precious dollars that get 
used very quickly.
    Mr. Graves of Louisiana. Last question. Secretary Darcy, 
you were in all the meetings for the 2007 Water Resources 
Development Act Conference Committee. In that act, there was a 
provision that authorized a restoration and closure of the MRGO 
[Mississippi River Gulf Outlet], at 100 percent Federal cost. 
The State of Louisiana had to sue the court. And again, I'm 
going to follow the law. The district court did rule in the 
State's favor, and indicated that as the law says, it's 100 
percent Federal cost. Yet the Corps has chosen to appeal the 
decision. I'm struggling with how you were in the room and 
clearly understood the intent of Congress, yet the Corps is 
continuing to pursue an appeal on that accurate decision, 
ruling by the district court.
    Ms. Darcy. I think the provision is up to interpretation, 
and that's why it's in the courts. Because of whether it was 
100 percent Federal for entire project or whether it was 100 
percent Federal for the study.
    Mr. Graves of Louisiana. I'll just say again that you were 
in the room. And----
    Ms. Darcy. And so were you.
    Mr. Graves of Louisiana. I was. Which is why, which is why 
the lawsuit was filed.
    Mr. Gibbs. Ms. Norton?
    Ms. Norton. Thank you again, Mr. Chairman. Secretary Darcy, 
I think the administration deserves a lot of credit for how you 
handled something of a hostile takeover by gunfire in, I think 
it was Princeton, Oregon, the Malheur National Wildlife Refuge. 
I'd like to know more, particularly since firearms cannot be 
carried on lands owned or operated and maintained by the Corps 
of Engineers. Although there are always attempts to reverse 
that policy. I would like to know what you can tell the 
committee about the background of that issue. Was the Corps 
consulted? What role does the Corps have when it comes to law 
enforcement? How are we going to keep this from happening 
again?
    Ms. Darcy. Congresswoman, on Army Corps of Engineers lands, 
our property, the only allowable firearms are for hunting. And 
the firearms are not allowed on Corps property to be loaded. 
What happened in Oregon at the National Wildlife Refuge was 
incredibly unfortunate for everyone, especially when there's a 
loss of life. But at our facilities our Park Rangers aren't 
armed. We don't have law enforcement on site. And we believe 
that in order to have the best recreation experience for our 
visitors to our facilities is to not allow loaded firearms on 
our facilities. We want people to have a safe and enjoyable 
experience. It's outdoor recreation. People are supposed to be 
having fun, not be worried about their safety.
    General Bostick. I'd only add that we do not carry firearms 
because we're not congressionally authorized to be full Federal 
law enforcement officers.
    Ms. Norton. Well, if someone came and you could see that 
they were carrying a firearm that is not allowed, and your, 
your unarmed agents were there, what could they do? What would 
they do in that event, if you are to prevent another such 
incident? Yes, you're right----
    General Bostick. They would----
    Ms. Norton [continuing]. With the loss of life, for 
example, that occurred there, despite what was otherwise, it 
seems to me, handled very well.
    General Bostick. This has happened before. And we call the 
Federal law enforcement. And they're quick to respond.
    Ms. Norton. And who is that?
    General Bostick. Our Park Rangers would call the local 
police.
    Ms. Norton. So what are you doing to prevent another such 
incident since you've seen it? The local community was very 
disturbed. Did not want this, this controversy in its 
community. Apparently got on very well with the hunting that 
goes on here. But you've seen what you had to do. You waited 
them out. You handled it very intelligently. But of course, you 
have whole States in the United States that were carved out of 
Federal land. And so there will be a few people who decide that 
they want all that land back. That may be impossible. I submit 
it is impossible. But you have had, forgive me, a shot across 
your bow. So I'd like to know what precautions you are taking 
to keep the Corps and the Federal agents from having to be 
involved in this matter again. A matter like this again.
    Ms. Darcy. Well, because we are one of the only Federal 
agencies that do not allow firearms on our facilities, we are 
going to continue to protect our facilities from firearms being 
allowed.
    Ms. Norton. Did your rangers quickly notify----
    Ms. Darcy. They call local authorities when there's an 
incident.
    Ms. Norton. Well, but could they, did they know that these 
people--they come on to, to--they come onto the wildlife 
preserve. They're bearing arms. Were they bearing arms so that 
the rangers could see them? And did they call the authorities 
right away?
    Ms. Darcy. You are allowed to bring firearms onto those 
facilities. You are not allowed to----
    Ms. Norton. I'm talking about the firearms they had that 
you said were not allowed.
    Ms. Darcy. No, they're not allowed on Corps of Engineers 
facilities. They are allowed on other public lands.
    General Bostick. And the example you're talking about was 
not a Corps facility.
    Ms. Norton. It was the National Park Service?
    Ms. Darcy. It was a wildlife refuge, the one in Oregon, 
yes.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Gibbs. Mr. Rokita.
    Mr. Rokita. Thank you again, Chairman. I want to focus a 
little bit on the Harbor Maintenance Trust Fund myself. Can you 
provide the committee a detailed list of what the Harbor 
Maintenance Trust Fund account spends its money on?
    Ms. Darcy. Yes, we can provide it.
    Mr. Rokita. OK. What's a reasonable deadline to get that? 
I'm not trying to be----
    Ms. Darcy. No, I'm trying to think when.
    Mr. Rokita. Sometimes when we ask questions like this and 
they yes it's all very nice, and then you don't hear from 
anybody for 6 months.
    Ms. Darcy. OK. Well----
    Mr. Rokita. I just want to be reasonable.
    General Bostick. Just to clarify, you're talking about the 
money that we review from the Harbor Maintenance Trust Fund and 
what it's spent on? Not the collective money, the $8 billion or 
so?
    Mr. Rokita. Yeah, what you are spending the money on.
    Ms. Darcy. What we're spending it on.
    Mr. Rokita. What you--thank you. Yeah, for that 
clarification, which leads into the problem Mr. Graves was 
talking about. And then, and I'll lead into it as well.
    Ms. Darcy. Just a clarification. Part of the Harbor 
Maintenance Trust Fund is used on the Saint Lawrence Seaway. We 
can provide you all that information.
    Mr. Rokita. Yeah. I'm trying to understand what you're 
spending, what you're spending the money on. Do you feel you--
and what's a reasonable date? A month from now?
    Ms. Darcy. Yes.
    Mr. Rokita. OK, thank you. Do you feel you need any 
clarification in the authorizing law to help direct the 
spending better to meet your inland waterway needs? Can we 
write the next water bill with more specificity in any way that 
would help you complete your mandate?
    Ms. Darcy. I believe in the last WRRDA bill, the Congress 
added some more additional ways that they felt the trust fund 
should be used. And, and I know that in the past there have 
been many who have felt that the use of the trust fund should 
be expanded beyond operation and maintenance.
    General Bostick. Right. One area I thought was helpful. 
Often we couldn't fund some of the Great Lakes and some of the 
small harbors. And some of the provisions were a certain 
percentage that would go to those. And we're now able to do 
that. So----
    Mr. Rokita. Is that the 71 percent you're----
    General Bostick. That's the 10 percent.
    Mr. Rokita. The 10 percent. And then there's also the 71 
percent that we did put in the last water bill.
    General Bostick. Right.
    Mr. Rokita. That 71 percent of the trust fund had to be 
spent on----
    General Bostick. Right, right.
    Mr. Rokita [continuing]. Inland water.
    General Bostick. I was talking about the allocation of the 
funds that we have. And we'll get that list to you. We're 
required to put 10 percent in Great Lakes and the small 
harbors. And we did not have that guidance before that. But 
that's again, the Congress and the American people helping to 
set the priorities.
    Mr. Rokita. So with regard to that, the 10 percent and the 
71 percent, it--and I'll put my Budget Committee hat on here 
for a minute. I don't see the President's budget proposal 
asking for that 71-percent expenditure in those areas that we 
required in the last water bill. I see a percentage that 
appears less than that, significantly less than that. How do 
you explain that?
    Ms. Darcy. The $951 million that's in the President's 
budget request for 2017 is what we have determined is 
affordable from the overall trust fund for fiscal year 2017. 
And it's not 71 percent. I'm trying to recall what the exact 
percentage is. But it's not 71 percent.
    Mr. Rokita. Oh, yeah. But the law says that 71 percent of 
last fiscal's collections are supposed to be spent specifically 
in these, you know, in the areas we detailed. And you've just 
said, ``Well, we've allocated a percentage amount that we think 
is responsible.'' What's--there is a huge difference there 
obviously. The law says something. And if--I don't want to put 
words in your mouth. You can correct me if I'm wrong. You're 
saying you did something else? Or is the law not clear?
    Ms. Darcy. No, the President has discretion in his budget 
to determine the amount that's affordable from the trust fund.
    Mr. Rokita. Even though the law says, ``You shall spend 71 
percent.'' Is there like a comma or a clause afterwards that 
says ``Unless, at the discretion of the President, he can not 
do that''? And to be sure, on record, I will say that I bet the 
appropriators, Republicans and Democrats are complicit in this, 
OK? But if you believe that the President's budget is a tool 
for, a tool of leadership and sets tones and all that, why not 
just set it at 71 percent? It's what Congress intended, unless 
I'm misreading the law.
    Ms. Darcy. No, I believe the 71 percent was in the statute.
    Mr. Rokita. Right. So it's not a matter of taking more 
money than the trust fund has, because it's a percentage, it's 
71 percent of whatever was collected. So it's not that. So 
what--I mean, why don't we just do what the law says? We're a 
country of laws, right?
    Ms. Darcy. Yes.
    Mr. Rokita. It's what I do for a living these days. All 
right. It also seems to me--here's another question--that the 
money that is at Treasury for this trust fund is actually being 
spent in other places? Or is it, is there still a stack of 
money there the tax has collected? And if you're not going to 
follow the law, I would say embezzled, from taxpayers to use on 
other things? That's embezzlement. But the money is in the 
Treasury, right? Or no? Or has it been spent on other things?
    Ms. Darcy. It's in the Treasury, yes.
    Mr. Rokita. So there's a--the money is there. It's 
accounted for. It's just it seems to me being used to offset 
spending elsewhere. And no one wants to give up that egg, 
because now it's harder to balance. I mean, I do this every 
day. I get that, how hard that is. But you think the money is 
there. It's not been spent on other things?
    Ms. Darcy. No. I think the way you described it is 
accurate, that it has been used to balance other things.
    Mr. Rokita. No, no, no. But it's there. It's physically 
there. It's not so you can balance on paper. Or has it been 
actually spent on other things?
    Ms. Darcy. I believe it's there. But if I need to clarify 
for you----
    Mr. Rokita. Yeah.
    Ms. Darcy [continuing]. I will do that.
    Mr. Rokita. And again, I'm not asking you a trick question, 
but I would like a direct answer to that. I just don't know. 
And if I have to ask Treasury, you can----
    Ms. Darcy. OK.
    Mr. Rokita [continuing]. Pretty quickly tell me to ask 
Treasury. You don't have to analyze that for 6 months.
    Ms. Darcy. Well, maybe I need to ask Treasury.
    Mr. Rokita. Yeah. Thank you.
    Ms. Darcy. OK.
    Mr. Rokita. Mr. Chairman, I yield. I appreciate the 
witnesses today.
    Mr. Gibbs. All right. I've got a couple more questions. 
General Bostick, in your testimony, you talked about the P3s 
and your support for that. Even though nothing's really 
happening. And this ties into what I said in my opening 
statement about 40 percent of the implementation guidance 
hasn't been developed by the Corps. And I believe P3 should be 
in that category. Can you extrapolate on where we are with the 
implementation guidance?
    General Bostick. The implementation guidance on the P3?
    Mr. Gibbs. Well, P3s, and then it ties specifically I think 
overall, you've got about 60 percent of it done. So you've got 
40 percent more to go. That's my understanding. And I think P3s 
would be in that category. I know you, I know you put out a 
guidance on P3s that was kind of not guidance in my opinion. 
You just said, ``We'll develop a guidance when funds are 
appropriated.'' I don't really think that's guidance.
    General Bostick. We put the implementation guidance out on 
P3s. And it has about as much detail as we can, moving forward. 
I think that the work that we're doing with Fargo-Moorhead will 
help us to refine that guidance a bit more. Because there are 
just a lot of unknowns out there. In terms of where we're at 
now, we expect to have by this summer, about 90 percent of the 
requirements done for implementation guidance. We're moving a 
lot faster than I thought we were as of last year. We picked up 
the pace. We've spent most of our time focused on the really 
hard guidance that needed to go out. I think the remainder of 
it should go much faster. I think when we briefed you last year 
we were at around 38 percent. This year we're around 60 percent 
and we'll be at 90 percent by June.
    Mr. Gibbs. OK. Can you give us a quick update on the 
Olmsted project? If you could, talk about what the status is on 
that, on the timeline?
    General Bostick. I'd have to get back on you. I think we're 
still tracking Olmsted around the completion, around 2020, that 
we're moving at a faster rate than we thought. Even though 
we're well behind the original timeline. But I'll follow up if 
2020 is not the date.
    Mr. Gibbs. OK. I know we're making progress. I just wanted 
to get kind of a followup and an update so we can see. Because 
that project has been enormous, as you know. I want to go back 
to my previous question, in talking about the Soo locks. You 
know, that was authorized I believe in WRDA 1986. So you do 
have authorization to move forward. And the cofferdams were 
built--do you know about when the cofferdams were put in? Is 
that for both locks, or what's the status on the cofferdam?
    General Bostick. I--I don't----
    Mr. Gibbs. I think it's around 2009 I think.
    General Bostick. Yes, I don't have that. I'd have to get 
back to you.
    Mr. Gibbs. OK. On this, when I mentioned the question about 
the Poe lock and the old MacArthur lock, what's the budget to 
maintain them, and as we work towards building the new lock?
    General Bostick. I'd have to follow up on that. We came in 
really prepared to talk about 7001. But we have those details.
    Mr. Gibbs. OK.
    General Bostick. And we can get them back to you.
    Mr. Gibbs. OK. Well, that's good. I mean, I, you know, I'm 
harping on this a little bit, because I just think that you 
have an authorization to move forward. I would even question 
the need to spend a lot of time in an economic study, you've 
heard my comments about that earlier. I mean, I don't think we 
need to study this for a long time to figure out that it has 
benefit cost analysis. You know, because of the importance of 
that. So I just wanted to hammer on that again. And you know, 
we started the cofferdam. It was put in. And you know, it's 
sitting there. And I know that the Michigan delegation did a 
little CODEL up there a few months ago. I wasn't able to 
participate. But there's a lot of interest up there and a lot 
of concern. We know that the Great Lakes as a unit is 25 
percent of the economic activity of all the ports in the United 
States. And obviously we can't have a big snag up there. And 
that would obstruct not only the region, but probably the 
economy nationally, in some negative way. So I want to thank 
you both for coming today. You know, just in closing, I think 
it's important to recognize moving forward the implementation 
guidance we talked about. So I'm glad to hear about that. I 
think another big area that we talked about is communications 
between the different levels in your shop. But in terms of 
collaboration with the non-Federal sponsors, I think sometimes 
there seems to be some tension. I challenge the Corps to try to 
develop a better partnership, develop a relationship and 
collaborate. I think that's important. Because I think 
everybody out there wants to do what they can do and do the 
right thing. But sometimes there's a feeling I get there when I 
talk to the non-Federal sponsors that it's not the relationship 
that it really should be. So I think that's just something we 
need to work on. And so I just wanted to bring that up. And I 
want to thank you for both being here today. Do you want--go 
ahead, Secretary.
    Ms. Darcy. Mr. Chairman, before we leave today I would just 
like to acknowledge the person to my left. This is probably the 
last time he'll be in front of this committee. The Army and the 
Nation are going to retire General Bostick in the spring. And I 
just want to publicly thank him for all that he has done for 
this organization through his leadership, not only as the Chief 
of Engineers but as a General in the United States Army.
    Mr. Gibbs. Thank you for mentioning that, because I wasn't 
aware of that. At least, I had heard of it, but I didn't want 
to say anything, because I didn't know how official it was. But 
I do want to thank you, General Bostick, for your service. And 
thank you for coming up to my district. We had a good day out 
there, visiting some of the facilities there in my district 
such as the Zoar levee and the Dover Dam, which is, by the way, 
completed. And they're doing the Belvedere Dam. And that whole 
watershed. That basically takes care of mostly all of eastern 
Ohio, and the flood projects that were initiated back in the 
1930s are working well.
    And the Corps is doing I think a really good job working 
with the stakeholders. So I really appreciate the time you 
spent out there, and your busy schedule, and your service to 
our country. So thank you again, and I wish you very well in 
your retirement.
    General Bostick. Thank you.
    Mr. Gibbs. Thank you. Take care. This will adjourn our 
committee.
    [Whereupon, at 12:18 p.m., the subcommittee was adjourned.]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
</pre></body></html>
